<html>
<title> - HOUSE BILLS ON SEXUAL CRIMES AGAINST CHILDREN</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



                            HOUSE BILLS ON 
                     SEXUAL CRIMES AGAINST CHILDREN

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                                   ON

  H.R. 764, H.R. 95, H.R. 1355, H.R. 1505, H.R. 2423, H.R. 244, H.R. 
                          2796, and H.R. 2797

                               __________

                              JUNE 9, 2005

                               __________

                           Serial No. 109-30

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
21-657                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman
HENRY J. HYDE, Illinois              JOHN CONYERS, Jr., Michigan
HOWARD COBLE, North Carolina         HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   RICK BOUCHER, Virginia
ELTON GALLEGLY, California           JERROLD NADLER, New York
BOB GOODLATTE, Virginia              ROBERT C. SCOTT, Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
DANIEL E. LUNGREN, California        ZOE LOFGREN, California
WILLIAM L. JENKINS, Tennessee        SHEILA JACKSON LEE, Texas
CHRIS CANNON, Utah                   MAXINE WATERS, California
SPENCER BACHUS, Alabama              MARTIN T. MEEHAN, Massachusetts
BOB INGLIS, South Carolina           WILLIAM D. DELAHUNT, Massachusetts
JOHN N. HOSTETTLER, Indiana          ROBERT WEXLER, Florida
MARK GREEN, Wisconsin                ANTHONY D. WEINER, New York
RIC KELLER, Florida                  ADAM B. SCHIFF, California
DARRELL ISSA, California             LINDA T. SANCHEZ, California
JEFF FLAKE, Arizona                  CHRIS VAN HOLLEN, Maryland
MIKE PENCE, Indiana                  DEBBIE WASSERMAN SCHULTZ, Florida
J. RANDY FORBES, Virginia
STEVE KING, Iowa
TOM FEENEY, Florida
TRENT FRANKS, Arizona
LOUIE GOHMERT, Texas

             Philip G. Kiko, General Counsel-Chief of Staff
               Perry H. Apelbaum, Minority Chief Counsel
                                 ------                                

        Subcommittee on Crime, Terrorism, and Homeland Security

                 HOWARD COBLE, North Carolina, Chairman

DANIEL E. LUNGREN, California        ROBERT C. SCOTT, Virginia
MARK GREEN, Wisconsin                SHEILA JACKSON LEE, Texas
TOM FEENEY, Florida                  MAXINE WATERS, California
STEVE CHABOT, Ohio                   MARTIN T. MEEHAN, Massachusetts
RIC KELLER, Florida                  WILLIAM D. DELAHUNT, Massachusetts
JEFF FLAKE, Arizona                  ANTHONY D. WEINER, New York
MIKE PENCE, Indiana
J. RANDY FORBES, Virginia
LOUIE GOHMERT, Texas

                      Jay Apperson, Chief Counsel

           Elizabeth Sokul, Special Counsel for Intelligence

                         and Homeland Security

                  Michael Volkov, Deputy Chief Counsel

                 Jason Cervenak, Full Committee Counsel

                     Bobby Vassar, Minority Counsel


                            C O N T E N T S

                              ----------                              

                              JUNE 9, 2005

                           OPENING STATEMENT

                                                                   Page
The Honorable Howard Coble, a Representative in Congress from the 
  State of North Carolina, and Chairman, Subcommittee on Crime, 
  Terrorism, and Homeland Security...............................     1
The Honorable Robert C. Scott, a Representative in Congress from 
  the State of Virginia, and Ranking Member, Subcommittee on 
  Crime, Terrorism, and Homeland Security........................     3
The Honorable Sheila Jackson Lee, a Representative in Congress 
  from the State of Texas, and Member, Subcommittee on Crime, 
  Terrorism, and Homeland Security...............................     4

                               WITNESSES

The Honorable Mark Foley, a Representative in Congress From the 
  State of Florida
  Oral Testimony.................................................     6
  Prepared Statement.............................................     7
The Honorable Ted Poe, a Representative in Congress From the 
  State of Texas
  Oral Testimony.................................................     9
  Prepared Statement.............................................    10
The Honorable Ginny Brown-Waite, a Representative in Congress 
  From the State of Florida
  Oral Testimony.................................................    11
  Prepared Statement.............................................    12
The Honorable Earl Pomeroy, a Representative in Congress From the 
  State of North Dakota
  Oral Testimony.................................................    13
  Prepared Statement.............................................    15

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement of the Honorable Robert C. Scott, a 
  Representative in Congress from the State of Virginia, and 
  Ranking Member, Subcommittee on Crime, Terrorism, and Homeland 
  Security.......................................................    35
Prepared Statement of the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas, and Member, 
  Subcommittee on Crime, Terrorism, and Homeland Security........    35
Document entitled ``Case Study of Serial Killers and Rapists: 60 
  Violent Crimes Could Have Been Prevented Including 53 Murders 
  and Rapes''....................................................    37
Document entitled ``Highlights of the Foley Sex Offender 
  Registration and Notification Act''............................    57
List of Individuals and Organizations Supporting H.R. 2423, the 
  ``Sex Offender Registration and Notification Act''.............    59
Letter from the Honorable William Moschella, Assistant Attorney 
  General, Office of Legislative Affairs, U.S. Department of 
  Justice, to the Honorable Orrin G. Hatch.......................    60
Map of Registered Sex Offenders in the United States.............    82
Document entitled ``Preventable Crimes In Chicago''..............    83
Document entitled ``The DNA Fingerprint Act of 2005," Introduced 
  by Senator Jon Kyl.............................................    85

 
                            HOUSE BILLS ON 
                     SEXUAL CRIMES AGAINST CHILDREN

                              ----------                              


                         THURSDAY, JUNE 9, 2005

                  House of Representatives,
                  Subcommittee on Crime, Terrorism,
                              and Homeland Security
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:06 p.m., in 
Room 2141, Rayburn House Office Building, the Honorable Howard 
Coble (Chair of the Subcommittee) presiding.
    Mr. Coble. Good afternoon, ladies and gentlemen. I want 
to--we're one witness shy, but I am told that Mr. Pomeroy is en 
route, so we will commence and await his arrival.
    I want to welcome everyone to the second of three hearings 
this week before this Subcommittee to examine the problem of 
violent and sexual crimes against our Nation's children.
    I want to first extend my thanks to my friend and colleague 
from Wisconsin, Representative Mark Green, who chaired the 
Subcommittee's first hearing on June the 7th, and who has 
agreed to chair the hearing following this one at 4 today.
    We've all been shocked, I am sure, by the tremendous 
tragedies that have recently occurred involving brutal sexual 
and violent attacks against our young children. As citizens, 
parents, and legislators, our first duty is to protect our 
children, because they represent the future of our country. Now 
Congress has an important role to play in this area. We must 
quickly and responsibly--strike that. We must act quickly and 
responsibly when necessary to ensure the safety of the 
children.
    This hearing will examine recent proposals made by Members 
of the Judiciary Committee and other proposed bills introduced 
by several non-Judiciary Committee Members. Most of these 
proposals focus on reforms knitted to the Jacob Wetterling Act 
or the sex offender registries.
    The proposals are all aimed at ensuring that sexual 
offenders comply with registry requirements; adequate efforts 
are made to apprise the public of the presence of sexual 
offenders in their neighborhoods; and to ensure the accuracy of 
the information in the registries; and furthermore, to make 
State and national registries more user-friendly and accessible 
to the public.
    In addition, we are examining related proposals that 
address collection and use of DNA evidence, a tool which is 
critical to solving sex crimes and other violent crimes.
    The problems with sex offender registries were underscored 
by the recent rash of attacks by convicted sex offenders 
resulting in the killings of Jessica Lunsford, Sarah Lunde, 
Jetseta Gage, and other children. Since 1994, when Congress 
first passed the Jacob Wetterling Crimes Against Children and 
Sexually Violent Offender Act, States have been required to 
maintain sex offender registries. After the tragic murder of 7-
year-old Megan Kanka by a released sex offender living on her 
street, Congress passed Megan's Law, mandating community 
notification programs.
    All 50 States have sexual offender registries, and all 50 
States have some form of community notification requirements. 
However, States are given broad discretion in creating their 
own policies governing registry requirements and public 
notification efforts.
    The challenge we face today is monumental, when you 
consider these facts. There are currently nearly 550,000 
registered sex offenders in the United States. Most are not in 
prison, and most are unknown to the people in these various 
communities.
    Sex offender laws do not cover certain classes of 
offenders, such as juvenile sex offenders or other types of 
offenders who commit crimes against minors, which reflect a 
risk of possible harm to our children.
    The State criminal justice supervision and registry systems 
are currently overwhelmed. Probation, parole, and community 
supervision resources are strained. It is conservatively 
estimated that there are approximately 100,000 lost--that is 
``lost''--sex offenders; those that have failed to comply with 
State registration requirements.
    There is a wide disparity in the requirements of each 
State, and there is little to no infrastructure needed to 
ensure registration when sex offenders move from one State to 
another or when a sex offender enters another State to go to 
work or to enroll in a school. There's a strong need for more 
consistency and uniformity among State programs.
    We should be committed to developing a more comprehensive 
system for Internet availability of such information. We 
should, furthermore, consider the use of new technologies for 
tracking sex offenders and for protecting our children from 
possible attack. Of course, we also need to examine what 
additional funding may be needed to accomplish these broad 
goals.
    I want to commend my colleagues who have put forth 
comprehensive and well thought-out proposals to address these 
problems and others. I look forward to hearing from them today 
and reviewing these proposals by Members who are not here today 
before the Subcommittee.
    Our children are our most precious resource--you've heard 
it said dozens of times, but I say it again--that we have in 
our country. And our hearts go out to the families of those 
innocent and beautiful children who've been killed, sexually 
assaulted, or tortured. Too many times, we've had to read 
gruesome news accounts about these attacks, watch disturbing 
news reports, or listen to the anguish of the parents of these 
children.
    I'm anxious to hear from our distinguished panel of 
witnesses. And now I am pleased to recognize the distinguished 
gentleman from Virginia, Mr. Bobby Scott, the Ranking Member of 
this Subcommittee.
    Mr. Scott. Thank you, Mr. Chairman, for holding this 
hearing on the various bills regarding sex and other violent 
crimes against children.
    A host of bills have been filed by Members on both sides of 
the aisle in the wake of several horrific sex crimes and 
murders against children in recent years. These types of crimes 
are especially abhorrent, and the public demands actions to 
address them and to prevent similar crimes, to the extent 
possible.
    I know all of the bills before us are developed with these 
objectives in mind. However, as policymakers, we know that 
these types of tragedies will occur from time to time; so it is 
incumbent upon us not to simply do something, but to do 
something that will actually reduce the incidences of these 
crimes.
    We know that many more children die as a result of child 
abuse that is reflected by tragic cases of child sexual abuse 
and murder than we have seen in the news. And we know that the 
vast majority of child abusers, including child sex offenders, 
were abused themselves as children.
    We also know that the vast majority of abusers are 
relatives and other individuals well known to the child and 
family--90 to 95 percent, according to Be a Child's Hero 
Network--and that most cases of abuse are never reported to 
authorities, or even dealt with in an official manner.
    It would be nice to think that we can legislate away the 
possibility of such horrific crimes, but it is not realistic to 
believe that we can. And we should certainly seek to avoid 
enacting legislation that extends scarce resources in a manner 
that is not cost-effective or that actually makes the problem 
worse.
    While it is clear that having police and supervision 
authorities aware of all location and identification 
information about convicted child sex offenders, it is not 
clear that making that information indiscriminately available 
to the public, with no guidance or restriction on what they can 
do with or in response to such information, is helpful or 
harmful to children.
    There have been incidences of vigilante and other 
activities which have driven offenders underground. And again, 
the vast majority of offenders are family members or associates 
well known to the victim. In one recent case, a teacher was 
reading the names of offenders to a grade school class, in 
which the name of the father of one of the students, the 
victim, was in the class.
    Some of the elaborate procedures and requirements of the 
bills before us will cost a lot of money. And we should assure 
that such cost/benefit analysis of what would be the most 
productive use of such money should take place; rather than 
simply impose the requirements, without any reference to 
effectiveness or cost/benefit.
    Some States have already enacted initiatives, such as those 
we'll hear today. Hopefully, we'll hear what effect those 
initiatives have had on crimes against children, so we can 
consider Federal legislation which will be the most cost-
effective.
    So, Mr. Chairman, in hearing the testimony today we'll be 
listening for anything that reflects research and reliable 
evidence regarding to what might actually protect children and 
reduce incidences of child sexual and other abuse.
    I know we all mean well, but we also must assure that what 
we do will be actually productive, rather than something that 
just sounds good but might actually be counterproductive. Thank 
you, Mr. Chairman.
    Mr. Coble. I thank you, Mr. Scott.
    It's the custom of this Subcommittee to limit opening 
statements to the Chairman and the Ranking Member, and the 
Ranking Member of the full Committee and the Chairman of the 
full Committee, if they happen to be in attendance. Today, 
however, Mr. Green, the distinguished gentleman from Wisconsin, 
and Ms. Sheila Jackson Lee, the distinguished gentlelady from 
Texas, each of those have bills. And I, at this point, would 
recognize each one of those for a brief statement about their 
bill. Mr. Green?
    Mr. Green. Mr. Chairman, I actually will waive that. I know 
the hour is late, and a lot of folks have a lot of things to 
do. So I'll pass on my right to opening statement.
    Mr. Coble. I thank the gentleman.
    The gentlelady from Texas?
    Ms. Jackson Lee. I thank the Chairman for his indulgence, 
and I appreciate very much the Member witnesses that are before 
us, and so I will summarize very quickly. And I thank the 
Ranking Member, as well.
    As we look at this question of child sexual predators, it 
is important to look comprehensively at this issue. I simply 
offer that I'm very pleased that over the last two sessions 
I've introduced H.R.--in this session--244, but I've introduced 
it over the last two sessions, the act called the ``Save Our 
Children, Stop the Violent Predators Against Children DNA Act 
of 2005.'' It's based on the premise that only 22 State sex 
offender registries collect and maintain DNA samples as a part 
of registration.
    The single age with the greatest proportion of sexual 
assault victims reported to law enforcement was age 14. There 
were more victims of sexual assault between ages 3 and 17 than 
in any individual age group over age 17, and more victims age 2 
than in any age group over 40.
    Children like 5-year-old Samantha Runyon of California, who 
was abducted, sexually violated, and murdered, are most likely 
to be victims of sexual assault; with over one-third of all 
sexual assaults involving a victim who is under the age of 12. 
Just a few days ago, law enforcement officers in Texas, my 
Houston Police Department, buried a little ``Doe,'' a little 
young lady by the name of ``Angel Doe,'' whose face was eaten 
away as she was thrown into a watery ditch.
    It is clear that we need to address this question very 
directly. And I would hope, as we look comprehensively at this 
legislation, we'll look at ways and means of attacking the 
problem head-on.
    I close, Mr. Chairman, to say that this legislation would 
ask the Attorney General to establish and maintain, separate 
from any other DNA database, a database solely for the purpose 
of collecting the DNA information with respect to violent 
predators against children.
    It would also provide incentive grants for the Attorney 
General to make grants to each State that has in effect one or 
more programs that decrease the rate of recidivism among 
violent predators against children.
    We can only do this together, and we can only do this 
comprehensively. And so I look forward to the full hearing and 
the presentation by Members, and the consideration of all of 
our legislative initiatives. I thank you, Mr. Chairman.
    Mr. Coble. I thank the gentlelady.
    Mr. Pomeroy, we knew that you were en route, so we started 
ahead of time. But we knew you would be with us. Good to have 
you with us.
    Ladies and gentlemen, we have four distinguished witnesses 
with us today. Our first witness is the Honorable Mark Foley. 
Representative Foley serves the 16th Congressional District in 
the State of Florida, and was first elected to Congress in 
1994. He is currently the Co-Chairman of the Missing and 
Exploited Children's Caucus. Prior to serving in Congress, 
Representative Foley was a member of the Florida State Senate 
and the House of Representatives.
    Our second witness is the Honorable Ted Poe. Representative 
Poe serves the Second Congressional District in the State of 
Texas, and was recently elected to Congress this year. For 20 
years, he served as a felony court judge in Houston, Texas. 
Judge Poe has devoted himself to many issues related to 
children, including child abuse, neglect, and violence. He 
currently serves on the board of the National Children's 
Alliance.
    Our third witness is the Honorable Ginny Brown-Waite. 
Representative Brown-Waite serves the Fifth Congressional 
District in the State of Florida, and was first elected to 
Congress in 2003. She is currently a member of the 
Congressional Coalition on Adoption Institute and works with 
Angels in Adoption to recognize families who reach out to 
children. Prior to serving in Congress, Representative Brown-
Waite was commissioner of Hernando County, from 1990 to 1992, 
and served in the Florida State Senate for 10 years.
    Our final witness today is the Honorable Earl Pomeroy. 
Representative Pomeroy serves the At-Large--how many are there 
now, Earl?
    Mr. Pomeroy. Seven.
    Mr. Coble. Seven States who have At-Large Members of the 
House. And Mr. Pomeroy serves At-Large for the State of North 
Dakota, and was first elected to the Congress in 1993. 
Presently, he's served as a member of the--strike that. 
Previously, he served as a member of the North Dakota State 
House of Representatives and as a North Dakota insurance 
commissioner.
    Folks, it's good to have you all with us. I will say to you 
that our Subcommittee operates under the 5-minute rule. We 
apply that 5-minute imposition against you, as well as against 
ourselves. So when you see the red light illuminate in your eye 
in that panel in front of you, Mr. Scott and I will be breaking 
out the buggy whip if you don't wrap up before too long.
    But if you can stay with the 5-minute time rule, we'd 
appreciate it for a couple of reasons. Number one, time is of 
the essence. And number two, we have a second hearing on this 
subject matter immediately following this one.
    Mr. Foley, why don't you kick us off.

  TESTIMONY OF THE HONORABLE MARK FOLEY, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Mr. Foley. Thank you, Chairman Coble and Ranking Member 
Scott. On behalf of Congressman Bud Cramer and myself and the 
Congressional Missing and Exploited Children's Caucus, I want 
to thank you for holding this important hearing today, for 
giving me the opportunity to testify on H.R. 2423, the ``Sex 
Offender Registration and Notification Act.''
    Mr. Chairman, we've all heard the names in the news--
Jessica Lunsford, Jetseta Gage, Sarah Lunde, Megan Kanka, Jacob 
Wetterling, just to name a few--all beautiful children, 
carrying with them the hopes and dreams of every young child in 
this country; all taken away from their parents and their 
futures; killed by sex offenders.
    The numbers are shocking. There are 500,000 registered sex 
offenders in the United States, with 24,000 of them living in 
North Carolina and Virginia alone and 34,000 in Florida. Of 
that, according to the National Center for Missing and 
Exploited Children, we're missing 100,000 to 150,000 of these 
people.
    What may be even more surprising to you is that there is a 
200,000-person difference between all of the State registries 
and the Federal National Sex Offender Registry. There are many 
reasons we have not been able to keep track of these dangerous 
predators, but let me highlight a few.
    First, uniform registration information is not being 
collected. While most States have some form of registry, they 
are not usually the ones collecting the registration 
information. Instead, that responsibility falls on local 
communities, who use their own specialized criteria and then 
pass along the info to the States; which results in a registry 
with inaccurate and conflicting information.
    Second, current law does not take into account the 
increasing transient nature of these predators, or the 
development of newer technologies that can be used to track 
them.
    Third is that most States are not completely complying with 
the law because the carrot-and-stick approach we developed in 
the original law does not apply. In practice, States are 
supposed to be eligible for funds for any costs associated with 
implementing the law. However, we in Congress never funded the 
program. In addition, the penalty assigned to States for not 
complying, a 10 percent reduction in JAG funding, no longer 
applies, because of the way we changed that formula last year.
    The Sex Offender Registration Notification Act was designed 
to address these and a dozen other problems facing the current 
system. This bill is a thoughtful, pragmatic approach modeled 
on current law. This is not a knee-jerk reaction to recent 
events in my State. We have spent over 8 months working on this 
comprehensive bill with the National Center for Missing and 
Exploited Children, the U.S. Department of Justice, the FBI, 
and other Federal agencies.
    This legislation has been introduced in the Senate by 
Senators Orrin Hatch and Joseph Biden. It builds on the 
assumption that everyone--the Federal Government, the States, 
an average citizen--has a role to play in keeping track of sex 
offenders.
    First thing we did when we began to draft H.R. 2423 was to 
clean up the Wetterling Act. We examined what the law was 
designed to do; kept its intent; tightened up the language; and 
then placed it into neater categories.
    Under current law, this bill clearly lays out what the 
Federal Government, the States, and sex offenders must do after 
conviction triggering registration. We then went through and 
added 25 common-sense provisions that would further strengthen 
the way we track these pedophiles.
    Some of these provisions include requiring the States, not 
localities, to collect sex offender registration information; 
requiring sex offenders to register before they leave custody; 
incorporating tribal lands under the law; requiring sex 
offenders to update their registration more quickly than is now 
required; requiring States to have multi-field, searchable 
databases and requiring States to make this information 
available to other States; requiring at least semi-annual 
registration; requiring annual updates of the offender photos 
and fingerprints; and increasing registration duration period.
    Sex offenders are not petty criminals. They prey on our 
children like animals, and they will continue to do so unless 
we stop them. We need to change the way we track these 
pedophiles.
    Mr. Chairman, it has been noted that a society can be 
judged on how it best treats its children. We have a moral 
responsibility to do everything in our power to protect our 
kids from these animals. This bill will turn the tables, and 
make prey out of these predators. Failing to act on this 
measure is just playing Russian roulette with our children.
    I want to thank John Walsh, particularly, who has led the 
fight on this effort, and quote him, ``I believe that in our 
State of Florida, who really does a pretty good job of trying 
to track these low-lifes, that Sarah Lunde and Jessica Lunsford 
might be alive today if this bill was passed a year ago.''
    Mr. Chairman, I look forward to working with you. I thank 
Chairman Sensenbrenner as well, and all of the Committee 
Members, for giving us a chance, for all partnering on this 
very, very important societal problem, and working together to 
find some common ground and common solutions.
    [The prepared statement of Mr. Foley follows:]

  Prepared Statement of the Honorable Mark Foley, a Representative in 
                   Congress from the State of Florida

    Chairman Coble,
    On behalf of Congressman Bud Cramer and the Congressional Missing 
and Exploited Children's Caucus, I want to thank you for holding this 
important hearing today and for giving me the opportunity to testify on 
H.R. 2423, the Sex Offender Registration and Notification Act.
    Mr. Chairman, we have all heard their names. Jessica Lunsford, 
Jetseta Gage, Sarah Lunde, Megan Kanka, Jacob Wetterling, just to name 
a few. All beautiful children carrying with them the hopes and dreams 
of every young child in this country. All taken away from their parents 
and their futures--killed--by sex offenders.
    The numbers are shocking. There are currently over 500,000 
registered sex offenders in the United States--with 24,000 of them 
living in North Carolina and Virginia alone. Of that, according to the 
National Center for Missing and Exploited Children, we are missing 
between 100,000 to 150,000 of these predators.
    What may be even more surprising to you is that there is a 200,000 
person difference between all of the state registries and the federal 
National Sex Offender Registry (NSOR).
    There are many reasons we have not been able to keep track of these 
dangerous predators, but I will just highlight what I believe are the 
top three for you today.
    First, uniform registration information is not being collected. 
While most states have some form of registry, they are not usually the 
ones collecting the registration information. Instead, that 
responsibility falls on local communities who use their own, 
specialized criteria and then pass along that info to the states. What 
results is a registry with inaccurate or conflicting information.
    Second, is that current law does not take into account the 
increasingly transient nature of these predators or the development of 
newer technologies that can be used to track them.
    Third, is that most states are not completely complying with the 
law because the ``carrot and stick'' approach we developed in the 
original law does not apply. In practice, states are supposed to be 
eligible for funds for any costs associated with implementing the law. 
However, we never funded the program. In addition, the penalty assigned 
to states for not complying--a 10% reduction in JAG funding--no longer 
applies because of the way we changed the formula last year.
    The Sex Offender Registration and Notification Act was designed to 
address these and dozen other problems facing the current system. This 
bill is a thoughtful, pragmatic approach modeled on current law. This 
is not a knee-jerk reaction to recent events. We have spent over eight 
months working on this comprehensive bill with the National Center 
Missing and Exploited Children, the Justice Department and other 
federal agencies.
    The legislation, which has been introduced in the Senate by 
senators Hatch and Biden, builds on the assumption that everyone--the 
federal government, the states and the average citizen--has a role to 
play in keeping track of sex offenders.
    The first thing we did when we began to draft H.R. 2423 was to 
``clean up'' Wetterling. We examined what the law was designed to do, 
kept its intent, tightened up the language and then placed it into 
neater categories. Unlike current law, this bill clearly lays out what 
the federal government, the states and sex offenders must do after a 
conviction triggering registration.
    We then went through and added 25 common sense provisions that 
would further strengthen the way we track these pedophiles. Some of 
those provisions include: requiring the states, not localities, to 
collect sex offender registration information; requiring sex offenders 
to register before they leave custody; incorporating tribal lands under 
the law; requiring sex offenders to update their registrations more 
quickly than is now required; requiring states to have multi-field, 
searchable database and require states to make that information 
available to other states; requiring at least semi-annual 
registrations; requiring annual updates of the offenders photos and 
fingerprints; and increasing the registration duration period.
    Sex offenders are not petty criminals. They prey on our children 
like animals and will continue to do it unless stopped. We need to 
change the way we track these pedophiles.
    Mr. Chairman, it has often been noted that a society can be judged 
on how it best treats it children. We have a moral responsibility to do 
everything in our power to protect our kids from these animals. This 
bill will turn the tables and make prey out of these predators. Failing 
to act on this measure is just playing Russian roulette with our 
children's lives.
    I think John Walsh said it best when he said: ``I truly believe 
that in our state of Florida--who really does a pretty good job of 
trying to track these lowlifes--that Sarah Lundy and Jessica Lunsford 
might be alive today if this bill was passed a year ago.''
    I look forward to working with you and Chairman Sensenbrenner on 
moving this bill as quickly as possible. I look forward to answering 
any of your questions.
    Thank you.

    Mr. Coble. Mr. Foley, you have just applied pressure to 
your three colleagues, because you did comply with the 5-minute 
rule. I commend you for that.
    Mr. Foley. May be a first in my life. Thank you.
    Mr. Coble. Mr. Poe, good to have you with us.

    TESTIMONY OF THE HONORABLE TED POE, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Poe. Thank you, Mr. Chairman, Ranking Member Mr. Scott. 
I appreciate the chance to be here, and you holding this 
hearing.
    Media stories about sex crimes against children are 
presently being reported at an alarming rate in the United 
States. These crimes are also some of the most under-reported 
of criminal activity.
    One of the victims' grandmothers of one of these recent 
crimes said that, ``People have the right to know where sex 
offenders are living. The police should know, and they should 
notify the public.'' We know the number-one thing that child 
predators desire is to remain anonymous. Those days are over. 
No longer can ex-convicts for child sexual assault move in and 
out of our neighborhoods without us knowing who they are.
    While some States have registration laws for convicted 
child predators, many still manage to slip through the system.
    We know that the recidivism rate of convicted child 
molesters is extremely high. When many leave the penitentiary, 
they continue their ways against our greatest resource, 
children.
    On March 15th of this year, I introduced the very first 
bill in Congress that I've introduced, House Resolution 1355, 
the ``Child Predator Act of 2005,'' to hold criminals 
accountable; impose tougher sentences for child predators who 
repeat. The Act closes loopholes in the present law, and places 
tools in the hands of parents who want to safeguard their 
children from these predators. This legislation amends the 
Wetterling Act of 1994 in six ways.
    First, the Child Predator Act defines the term of a ``child 
predator'' as a person who has been convicted of a sexual crime 
against a victim who is a minor, if the offense is sexual in 
nature and the minor is of the age of 13 years or younger.
    Second, child predators must report change of residence 
within 10 days of a move.
    Third, the Child Predator Act requires community 
notification. Child predators would have to notify, at a 
minimum, schools, public housing, and at least two media 
outlets such as newspapers and television stations, radio 
stations, that are covering the community.
    Fourth, the Predator Act would classify non-compliance as a 
Federal felony, rather than a misdemeanor. Rather than getting 
a slap on the wrist, these predators who knowingly fail to 
register would be charged with a felony in our Federal courts.
    Fifth, the Child Predator Act would mandate a national 
database. This would be available on a free access of Internet 
website.
    And finally, this Act would require prominent flagging of 
all the records in the national database of child predators.
    The National Center for Missing and Exploited Children 
confirms that sexual victimization of children is overwhelming 
in magnitude; yet largely unrecognized, and it is under-
reported. Statistics cited by the center reveal that one in 
five girls and one in ten boys are sexually exploited before 
they reach adulthood. However, less than 35 percent of child 
sexual assaults are reported to authorities.
    Even though previous legislation has addressed this social 
ill, this criminal conduct, we must stay the course. We must 
remain ever-vigilant, and not stop the fight. Child predators 
are innovative. They stalk neighborhoods, playgrounds, Cub 
Scout dens, our houses of worship and, as of late, they exploit 
the Internet to target youngsters.
    Mr. Chairman, we must put child predators on notice and let 
them know once and for all that we will not tolerate 
victimization of children.
    Mr. Chairman, Congress must make a statement to the 
American public that, while we are concerned about victims in 
other nations, we cannot overlook victims at home.
    The first duty of government is to protect its citizens. We 
as a people are not judged by the way we treat the rich, the 
famous, the influential, the powerful; but by the way we treat 
the weak, the innocent--our children.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Poe follows:]

   Prepared Statement of the Honorable Ted Poe, a Representative in 
                    Congress from the State of Texas

    <bullet>  Mr. Chairman, media stories about sex crimes against 
children are presently being reported at an alarming rate. These crimes 
are also some of the most underreported of criminal acts.
    <bullet>  One of these victim's grandmothers said: ``People have 
the right to know where sex offenders are living. The police should 
know . . . and they should notify the public.'' We know the number one 
thing child predators desire is to remain anonymous. Those days are 
over. No longer can ex-cons for child sexual assault move in and out of 
our neighborhoods without us knowing who they are. While some states 
have registration laws for convicted child predators, many still manage 
to slip through the system.
    <bullet>  We know that the recidivism rate of convicted child 
molesters is extremely high. When many leave the penitentiary, they 
continue their evil ways against our greatest natural resource--
children.
    <bullet>  On March 15th of this Year, I introduced my first bill--
the Child Predator Act of 2005--to hold criminals accountable and 
impose tougher sentences for child predators who repeat. The Act closes 
loopholes in the present law and places tools in the hands of parents 
who want to safeguard their children from child predators. This 
legislation amends the Wetterling Act of 1994 in six key ways.
    <bullet>  First, the Child Predator Act defines the term child 
predator as a person who has been convicted of a sexual offense against 
a victim who is a minor--if the offense is sexual in nature and the 
minor is age 13 years old or younger.
    <bullet>  Second, child predators must report change of residence 
within 10 days of a move.
    <bullet>  Third, the Child Predator Act requires community 
notification. Child predators would have to notify--at a minimum--
schools, public housing, and at least 2 media outlets such as 
newspapers, television stations, or radio stations covering that 
community.
    <bullet>  Fourth, the Child Predator Act would classify 
noncompliance as a federal felony. Rather than getting a slap on the 
wrist, child predators who knowingly fail to register would be charged 
with a felony.
    <bullet>  Fifth, the Child Predator Act would mandate a national 
database. This would be available on a free access internet website.
    <bullet>  And finally, the Child Predator Act would require 
prominent flagging of all the records in the national database for all 
child predators.
    <bullet>  The National Center for Missing and Exploited Children 
confirms that, ``The sexual victimization of children is overwhelming 
in magnitude yet largely unrecognized and underreported.'' Statistics 
cited by the Center reveal that 1 in 5 girls and 1 in 10 boys are 
sexually exploited before they reach adulthood; however, less than 35% 
of those child sexual assaults are reported to authorities. Even still, 
according to the Crimes Against Children Research Center, in 2000 
alone, 89,000 cases of child sexual abuse were substantiated.
    <bullet>  Even though previous legislation has addressed this 
terrible societal ill, we must stay the course. We must remain ever 
vigilant and not deescalate the fight. Child predators are innovative. 
They stalk our neighborhood playgrounds, our Cub Scout dens, our houses 
of worship, and as of late they exploit the internet to target our 
youngsters.
    <bullet>  Mr. Chairman, we must put child predators on notice and 
let them know--once and for all--that we will not tolerate the 
victimization of children
    <bullet>  The first duty of government is to protect its citizens. 
We as a people are not judged by the way we treat the rich, famous, 
influential, powerful, but by the way we treat the weak, the innocent--
the children.

    Mr. Coble. Thank you, Mr. Poe.
    Ms. Brown-Waite.

TESTIMONY OF THE HONORABLE GINNY BROWN-WAITE, A REPRESENTATIVE 
             IN CONGRESS FROM THE STATE OF FLORIDA

    Ms. Brown-Waite. I want to thank you, Mr. Chairman, for 
holding this hearing, and certainly the Ranking Member and the 
other Members who are here today, on this very important issue.
    Mr. Coble. Ms. Brown-Waite, if you could suspend just a 
moment, I failed to recognize we've been joined by the 
distinguished gentleman from California, Mr. Lungren.
    Good to have you with us.
    Go ahead, Ms. Brown-Waite.
    Ms. Brown-Waite. Thank you. Nine-year-old Jessica Lunsford 
was stolen from us on February 24, and our community has not 
stopped mourning for her since. As a mother and a grandmother, 
my heart goes out to the Lunsford family in their terrible time 
of grieving.
    I personally experienced the anxiety and fear throughout 
the Citrus County area, when residents searched for Jessica for 
days, and then weeks. I live in Citrus County, about 8 miles 
away from the Lunsford family. When sexual offender John Couey 
was arrested, we learned that little Jessica had not only been 
kidnapped, but had been sexually assaulted and buried alive. I 
saw the pain in Jessica's father's eyes when he spoke of how 
she was taken from him. She was his best friend, and his 
future. I still cannot get out of my head what that little girl 
must have gone through those days hidden in Couey's closet in 
the trailer, and being sexually abused, and eventually buried 
alive in a plastic trash bag.
    Almost daily, we hear tragic stories of young children 
whose lives were robbed from them, and parents who cannot 
escape from these tragedies. Frankly, like many Members of 
Congress, I am fed up with these stories, because in most 
cases, such as Jessica's, they could have been prevented.
    Her killer, John Couey, was a registered sex offender in 
the State of Florida. A man already convicted of molesting a 
child, he was not living at the address on file with law 
enforcement. In addition, this monster had a criminal record of 
24 arrests, including DUIs and drug charges.
    If harsher penalties and more frequent checks had been in 
place for failing to report a change of address, Couey would 
have never been on the streets and able to prey on this 
innocent child. Additionally, Couey's probation officer has 
stated if he had known of Couey's sex offender status, he would 
have kept a closer eye on his whereabouts.
    Moreover, Florida is not the only State to suffer from 
these tragedies. Taken as a whole, many States cannot account 
for up to 24 percent of the sex offenders who are supposed to 
be there.
    Congress has a duty to act and protect our children. That's 
one of the reasons why I introduced H.R. 1505--the bill is 
known as the ``Jessica Lunsford Act''--which would make needed 
reforms to our sex offender laws. Electronic monitoring of sex 
offenders must be one of those reforms. Today, these monsters 
are free to attack our children. We need to know where they are 
at all times. Period. With this technology, law enforcement 
will be equipped to do just that. Technology today is good, and 
it is accurate.
    Offenders who would fail to register, under the bill, with 
a State are currently penalized with a $100,000 fine and 1 year 
in prison, for a first offense, and a $100,000 fine and 10 
years in prison for two or more offenses. My legislation 
applies this penalty to those who fail to report a change of 
address, as well.
    Most importantly, it mandates that sex offenders who fail 
to register with a State, or fail to report a change of 
address, have to wear ankle monitoring devices for 5 years 
when, and if, they are released from prison. Sexual predators 
would wear the device for 10 years upon release. Families can 
feel safer knowing that these penalties ensure that the lowest 
of criminals are consistently and constantly monitored, and 
properly punished.
    Additionally, my bill requires that address verifications 
be sent out at least twice per year, and that they are randomly 
generated. The current Wetterling law requires that they be 
sent out once a year, and that they're not randomly generated. 
Non-forwardable verification mailers were written into the 
Jacob Wetterling Act, but then later removed. The bill ensures 
that offenders can no longer game the system. Under the bill, 
they would be unaware of when to expect this mailer.
    Mark Lunsford's heart breaks every time he thinks of 
missing his little girl's first day in high school, her college 
graduation, or the grandchildren that he never will meet. I 
urge this Committee to take action so that no other family 
suffers because of needless loopholes in the current law. We 
must fix this, and I stand ready to help in whatever capacity I 
can.
    Thank you again, Chairman Coble, for the opportunity to 
testify on this legislation.
    [The prepared statement of Ms. Brown-Waite follows:]

Prepared Statement of the Honorable Ginny Brown-Waite, a Representative 
                 in Congress from the State of Florida

    I would like to extend my heartfelt thanks to Chairman Coble for 
holding this important hearing today.
    Nine-year-old Jessica Lunsford was stolen from us on February 24th, 
2005 and our community has not stopped mourning for her. As a mother 
and a grandmother, my heart goes out to the Lunsford family in their 
terrible time of grieving.
    I personally experienced the anxiety and fear throughout the Citrus 
County, Florida area when residents searched for Jessica for days. When 
sexual offender John Couey was arrested, we learned that little Jessica 
had not only been kidnapped but had been sexually assaulted and buried 
alive. Every heart in the community broke. I saw the pain in Jessica's 
father's eyes when he spoke of how she was stolen from him. She was his 
best friend and his future. I still cannot get out of my head what that 
little girl must have gone through during days hidden in Couey's 
closet.
    Almost daily, we hear tragic stories of young children whose lives 
were robbed from them and parents who cannot escape from these 
tragedies. Frankly, I am fed up with these stories because in most 
cases, such as Jessica's, they could have been prevented.
    Jessica's killer, John Couey, was a registered sex offender in the 
state of Florida. A man already convicted of molesting a child, he was 
not living at the address on file with law enforcement. In addition, 
this monster had a criminal record of 24 arrests, including a DUI and 
drug charges. If harsher penalties and more frequent checks had been in 
place for failing to report a change of address, Couey would not have 
been on the streets and able to prey on our innocent children. 
Additionally, Couey's probation officer has stated that if he had known 
of Couey's sex offender status, he would have kept a closer eye on his 
whereabouts.

                            NEED FOR ACTION

    There is nothing we can do about the ``what ifs'' of Jessica's 
murder, but Congress can make sure we never fail another family because 
stricter laws and the elimination of loopholes could have prevented a 
tragedy. Moreover, Florida is not the only state to suffer from such 
tragedies. Taken as a whole, states cannot account for 24% of sex 
offenders who were supposed to register.
    Worried constituents ask me every day how this tragedy could have 
happened, and what their government is doing to prevent it from 
happening again. Congress has a duty to act and to protect our children 
nationwide, because these predators move from state to state.

                                HR 1505

    Before you today is my bill, H.R. 1505, the Jessica Lunsford Act, 
which would make the needed reforms to our sex offender laws. 
Electronic monitoring of sex offenders must be one of these reforms. 
Today, these monsters are free to attack our children. We need to know 
where they are at all times--period. With this technology, law 
enforcement will be equipped to do just that. We can even program the 
devices to send alarms if an offender is too close to a school or a 
playground. Technology today is that good and that accurate.
    My legislation mandates that sex offenders who fail to register 
with a state or fail to report a change of address two or more times 
wear an ankle-monitoring device for 5 years. Sexual predators would 
wear the device for 10 years. Families can feel safer knowing that 
these penalties ensure these lowest of criminals are constantly 
monitored and properly punished.
    Additionally, my bill requires that address verification mailers be 
sent out at least twice per year and that they are randomly generated. 
Current law only specifies annual address verification. HR 1505 ensures 
that offenders can no longer game the system. Under my bill, they would 
be unaware of when to expect the mailer, or how often they would be 
checked.
    HR 1505 also corrects the information block that has prevented 
probation officers from being provided with their probationer's sex 
offender background. The Jessica Lunsford Act requires a state officer 
or a court to notify the individual's supervising probation officer of 
any past sexual offense.
    Random address checks, electronic monitoring, and probation officer 
notification could have saved Jessica Lunsford's life. If these 
provisions had been in place, Jessica might be alive today.
    Mark Lunsford's heart breaks every time he thinks of missing his 
little girl's first day of high school, her college graduation, the 
grandchildren he could have met, and all the beautiful life events they 
could have shared together. I urge this Committee to take action so 
that no other family suffers because of needless loopholes in the 
current law.
    Pass this bill and make sure Jessica's death was not meaningless. 
Give her a legacy of saving lives. We must fix this, and I stand ready 
to help in whatever capacity I can.
    Thank you again Chairman Coble for the opportunity to testify on 
this legislation.

    Mr. Coble. Thank you, Ms. Brown-Waite.
    Mr. Pomeroy, you are our clean-up hitter today.

 TESTIMONY OF THE HONORABLE EARL POMEROY, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF NORTH DAKOTA

    Mr. Pomeroy. And it's a very impressive starting lineup 
that's been before me, Mr. Chairman. I commend my colleagues 
for the legislation that they've introduced. I'm honored to be 
on this panel with them.
    I also want to thank you, Mr. Chairman, and the Committee 
Members. Here we are late in the legislative day, after the 
last vote's been had for the week. We very much appreciate you 
spending the time in this hearing to hear about these 
circumstances.
    I believe that these circumstances of the bill that I've 
introduced, H.R. 95, the ``Dru Sjodin National Sex Offender 
Public Database Act of 2005,'' along with the other legislation 
noted today, show that tragedies have happened. We can learn 
from these tragedies and make legislative responses that make 
it less likely for tragedies to happen in the future.
    We had a situation in Grand Forks, North Dakota, where a 
lovely young co-ed, Dru Sjodin, was abducted from a shopping 
center parking lot in daylight on a Saturday afternoon. This 
never happens in our part of the country, and it traumatized 
the whole community.
    They trudged through snowbanks in the worst weather you 
ever saw, searching for Dru Sjodin for months. When the snow 
started to melt, they found her dead body. And some time after 
that, an arrest was made. A trial was pending, but Alfonso 
Rodriguez, Jr., has been charged with the crime.
    He had been recently released from serving a 23-year 
sentence for rape and attempted kidnapping, and had other prior 
convictions before that. He was released. Upon his release, his 
Minnesota registration was placed in the Minnesota database. 
The information was sent in to the Department of Justice, under 
the Jacob Wetterling Act. But there was no other publication, 
and so the community of Grand Forks, North Dakota, just across 
the border, a short distance from where he was residing, did 
not have broad knowledge in any way that we had such a 
dangerous individual in our midst.
    Additionally, he was released from prison without any 
referral to the attorney general's office relative to whether 
they might want to pursue civil commitment. Minnesota has civil 
commitment laws but, essentially, the jailer made the 
determination he was free to go, and they never even had the 
chance to apply that type of review.
    Finally, there was no particular extraordinary monitoring, 
even though while in prison he had not participated in the 
psychological counseling, not participated in the sexual 
offender treatment that was specifically recommended for this 
particular inmate. He was clearly high-risk, and indeed 
classified high-risk upon his discharge; but there was no 
extraordinary monitoring.
    The legislation that I'm pleased to have co-sponsored with 
Paul Gillmor is identical to what passed out of the Senate, 
with lead sponsor Senator Dorgan, called the Dru Sjodin Law, 
and addresses, we think, in three common-sense basic areas, 
loopholes that possibly, when closed, would stop this from 
happening again.
    First, we would allow the public to have access to this 
national database compiled by the Department of Justice under 
the Jacob Wetterling Act.
    Secondly, we would have mandatory referral, mandatory 
notification to the attorney general's office in those States 
where civil commitment laws exist, so that they have awareness 
that the individual is coming out of jail, in a timely fashion 
to evaluate whether they want to seek civil commitment in light 
of ongoing danger to the society.
    Thirdly, we would also have extraordinary monitoring for 
especially the first year of release. Statistics show us that 
the most likely period of repeat offense will occur within the 
first year of release from prison. And so we would have 
exceptional monitoring during this period of time as part of 
the release.
    I also want to say that I have co-sponsored Congressman 
Foley's legislation, H.R. 2423, and commend that to you. I 
believe H.R. 95 and H.R. 2423 are fair and reasonable responses 
to further secure the safety of our children, and commend them 
to your attention. Thank you for listening.
    [The prepared statement of Mr. Pomeroy follows:]

 Prepared Statement of the Honorable Earl Pomeroy, a Representative in 
                Congress from the State of North Dakota

    Mr. Chairman, Ranking Member Scott, and members of the 
Subcommittee, thank you for inviting me to join you to discuss efforts 
to strengthen our laws in ways that will protect children from sexual 
predators. Let me commend you at the outset for holding this hearing 
and for your willingness to examine this critical issue.
    It has been conclusively established that recidivism rates are 
alarming high for those convicted of sexual offenses. According to a 
Bureau of Justice Statistics study of male sex offenders released from 
15 states in 1994, 78.5 percent of those studied had been arrested at 
least one time prior to their incarceration and 13.9 percent had a 
prior conviction for a violent sexual offense. This study further finds 
that 5.3 percent of those sex offenders studied were rearrested for a 
new sex crime within three years of their release. In addition, the 
study found that of the released sex offenders who allegedly committed 
another sex crime, 40 percent perpetrated the new offense within a year 
or less from their prison discharge.
    A tragedy in my state of North Dakota has demonstrated the need for 
legislation to address these facts. Dru Sjodin, a 22-year-old 
University of North Dakota student, disappeared on November 22, 2003, 
at the Columbia Mall in Grand Forks, North Dakota. This young woman's 
disappearance sent Grand Forks, a small town which had not seen a 
kidnapping since 1989, reeling. And for days and weeks and months on 
end, thousands of volunteers worked tirelessly, trudging through snow, 
ice and sleet in search of any signs that could unlock the mystery to 
her disappearance. Her body was eventually discovered in a ravine, 
nearly five months later, in Crookston, Minnesota.
    A 51-year-old Minnesota man named Alfonso Rodriguez Jr. was charged 
with Dru's kidnapping and murder. Mr. Rodriguez had been released from 
prison just six months prior to Dru's disappearance after having 
completed a 23-year sentence for rape and attempted kidnapping. During 
Mr. Rodriquez's incarceration, he repeatedly refused psychological 
treatment offered to assist him in his rehabilitation. Mr. Rodriguez 
was released from prison under just one condition: that he register as 
a sex offender in the state of Minnesota.
    What's significant about the story of Mr. Rodriguez is that he had 
been rated by the Minnesota Department of Corrections as a ``level 
three sex offender,'' a category for those viewed to be likely to re-
offend. Although Minnesota had a civil commitment law for dangerous sex 
offenders, failure of the Department of Corrections to alert applicable 
authorities meant that no consideration was given about the need for 
civil commitment in this case.
    The circumstances surrounding this tragic case reveal the 
significant shortcomings of our present system. As Members of Congress, 
we have a responsibility to take these lessons and improve our laws to 
prevent similar tragedies from occurring in the future. That is why 
Rep. Paul Gillmor and I introduced the ``Dru Sjodin National Sex 
Offender Public Database Act.'' This bill is identical to legislation 
introduced by my North Dakotan colleague, Senator Byron Dorgan, that 
passed the Senate last November by unanimous consent. This common-sense 
bill gives our citizens the tools necessary to better protect 
themselves from sexual offenders.
    Sex offenders do not stop at state lines, and neither should our 
sex offender registries. That is why this legislation would create a 
federal online sex offender database that would be free and accessible 
to the general public. The current national database, established under 
the Jacob Wetterling Act, is accessible only by law enforcement. While 
many states and local communities provide their own online, public 
registries, they do not provide information on neighboring states.
    Recently, the Department of Justice announced their plans to 
provide for an online collection of the state databases that currently 
exist. While I applaud their efforts to nationalize these registries, I 
believe we must go a step further to ensure that a standardized and 
truly national database is created. Currently, not all states have 
online sex offender registries and those that do have registries do not 
collect the same information. This legislation would ensure that the 
same information would be collected and posted for all fifty states. 
Should states not comply with this legislation within three years, the 
state's funding allocated to them under the Violent Crime Control and 
Law Enforcement Act of 1994 would be cut by 25 percent and reallocated 
to state's already complying with the law.
    The Sjodin case demonstrated that the decision to proceed with a 
civil commitment proceeding in the case of a level three offender 
should be left to the state and not a prison corrections officer. Under 
this legislation, states with civil commitment proceedings would be 
required to provide timely notice to their state's attorney general of 
the impending release of a high risk sex offender, so that they can 
consider whether to institute a civil commitment proceeding.
    Finally, the Sjodin case demonstrated that high risk offenders 
cannot be without some level of monitoring to ensure that these 
individuals do not once again prey on our communities. Just because 
someone has served their time does not mean that they have been 
rehabilitated. Under this legislation, the state would be required to 
intensely monitor for at least one year any high risk sex offender who 
has not been civilly committed and who has been unconditionally 
released.
    Before I conclude, I would also like to mention that I am also an 
original co-sponsor of H.R. 2423, The Sex Offender and Registry 
Notification Act of 2005. I believe it is imperative to protect our 
children when they are online and to go after those who would bring 
harm to our children. H.R. 2423 addresses the threat of online 
predators by expanding the definition of a criminal offense against a 
minor to include ``use of the Internet to facilitate or commit a crime 
against a minor.'' I appreciate the Subcommittee's full and fair 
consideration of this bill.
    I believe that H.R. 95 and H.R. 2423 are fair and reasonable 
responses to further secure the safety of our children, and I would 
deeply appreciate your assistance in moving legislation on this issue 
through the Committee and to the floor of the House of Representatives. 
Thank you for your attention to this important matter.

    Mr. Coble. Thank you. And I think, Mr. Scott, this is the 
first case, the first impression, when all the witnesses 
complied with the 5-minute request. I commend you for that.
    I've been told that Mr. Poe is on a short leash, that you 
have to leave in 25 minutes, Mr. Poe; so let me start with you. 
Mr. Poe, you've discussed in your testimony the gaps in current 
law in terms of coverage of certain sexual offenders. More 
specifically, how significant is this problem when it comes to 
States, and how much variance is there?
    Mr. Poe. States have different registration laws. Some 
comply mentally with a mental--excuse me, minimal registration 
requirement. Others, such as Florida and Texas, have great 
registration laws. People move across State lines. They fall 
through the cracks. They don't re-register when they move to 
another State. The State they left loses jurisdiction. And that 
is the purpose of this bill, to prevent that from happening, by 
having a national database.
    Mr. Coble. Thank you, sir.
    Mr. Foley, you submitted a national map revealing the 
number of ``lost'' sexual offenders in each State. And I'm told 
that, conservatively, there are 100,000 in that group. 
Elaborate on the problem, the extent of it, and why this 
problem has occurred.
    Mr. Foley. Well, I think you have to take it back to the 
basic problem of not having cross-State registrations. First 
and foremost, we are able to collect data from all of these 
States, thanks to the National Center's excellent efforts in 
doing so. The Federal Government relies on them for this 
information.
    But as Mr. Pomeroy clearly indicated, and particularly, 
anyone on a border area, whether you're living in north Florida 
and surrounded by Georgia, Alabama, or a quick trip to 
Mississippi, you may feel harassed or put upon in one of those 
States, so you quickly go across another State's jurisdiction 
where you no longer have a registration responsibility or 
capability.
    That's why we try to incorporate this as a model for 50 
States to follow, because we think it's best not only to get 
the data to the law enforcement personnel that can then 
monitor, but also protect those residents of adjoining States.
    And so this is why we chose to show the severity of the 
problem with the kind of numbers that are evident throughout 
the entirety of the United States. It's not just Florida. It's 
not just one State. All of us share in the same grave 
responsibility.
    Mr. Coble. I thank you, sir.
    Mr. Pomeroy, your proposal would require the creation of a 
national sex offender registry. How would that differ from the 
recent announcement by the Justice Department of its plan to 
create a National Sex Offender Public Registry Website?
    Mr. Pomeroy. Right. The proposal--and we certainly welcome 
it, and it's an advance from where we are--by the Department of 
Justice would essentially collect the State registrations, and 
put them out in a compiled form.
    What the legislation would do is have a uniform format, 
applied across the 50 States. And so we think, therefore, the 
legislative response is a bit stronger and is going to be more 
helpful. But we certainly do welcome the DOJ initiative.
    Mr. Coble. I thank you, sir.
    Ms. Brown-Waite, you've outlined an interesting idea. That 
is, mail verification of addresses for sexual offenders on the 
registry. Elaborate, if you will, logistically how that would 
work. And in your view, would it be cost-effective?
    Ms. Brown-Waite. Mr. Chairman, I'm delighted to answer 
that. The bill calls for a random mailing to the sex offender 
and predators twice a year. By this random mailing, they're not 
going to know when it's going to arrive. Right now, States do 
one mailing a year, and most States do it shortly after the 
beginning of the year, or after the beginning of their fiscal 
year; so that the sexual offenders know when it's going to 
arrive. A random mailing would be a better method to determine 
whether or not these predators and offenders who violate our 
children are really living where they say they're living.
    Mr. Coble. You probably don't have--well, I shouldn't say 
that. Do you have an idea as to cost?
    Ms. Brown-Waite. Actually, we do have an idea as to cost. 
And I would remind the members of the panel that there are 
right now methods that States can go through to draw down some 
funding. One is what are called SOMA grants, Sexual Offender 
Management Assistance grants. So that's one source that States 
could turn to. And of course, the other is the Byrne grant 
process.
    But CBO has given our bill a preliminary estimate of 
500,000 for the mailer; and a range of 5 million, possibly as 
high as 30 million, with an estimate of about 18 million, for 
the ankle monitoring device.
    Mr. Coble. Thank you, ma'am.
    The gentleman from Virginia.
    Mr. Scott. Thank you, Mr. Chairman. Eighteen million for 
the ankle bracelet? Is that what you said?
    Ms. Brown-Waite. Yes, sir.
    Mr. Scott. I've seen estimates for Virginia alone at the 
$100 million range for the ankle bracelet program.
    Ms. Brown-Waite. I can just share with you that technology 
has brought down the cost of the ankle monitoring devices. And 
I know that the State of Florida recently passed legislation 
requiring this, and we are using many of the newer figures.
    Mr. Scott. Are these national figures, or just Florida 
figures?
    Ms. Brown-Waite. They're national figures, but they also--
they reflect the newer, lower cost of the tracking devices.
    Mr. Scott. How many offenders would be monitored?
    Ms. Brown-Waite. Well, it would depend--I don't know the 
number that they were looking at when they came up with this 
estimate. Those who did not notify of a change of address or 
those who failed to respond to the mailer would then be sent to 
prison. So that's, of course, part of the cost. They would be 
sent to prison. When they get out, then they would have to wear 
the ankle monitoring device.
    Mr. Scott. Of all of the children abused in America, how 
many are abused by those who have already been convicted of a 
sex offense and would be covered by this notification?
    Ms. Brown-Waite. There have been estimates. I have seen 
estimates, Mr. Scott, of anywhere from a recidivism rate of 
about 24 percent, all the way up to a very high percentage, 
over 50 percent, so I don't----
    Mr. Scott. What does ``recidivism rate'' mean?
    Ms. Brown-Waite. The ``recidivism rate'' means they were a 
sexual offender on a child; they got out, and did it again, 
sir.
    Mr. Scott. Did anything again? Or the 3 percent that would 
offend again with a sex offense?
    Ms. Brown-Waite. Yes, they were sex offenders. Sex offense.
    Mr. Scott. It's your testimony that the recidivism rate for 
sex offenders is higher than average recidivism rate? That's 
your testimony?
    Ms. Brown-Waite. I didn't compare it to average recidivism 
rate, sir. I just gave the criminal rate----
    Mr. Scott. Of the portion of children that are abused, what 
portion are abused by those convicted of a child abuse crime?
    Ms. Brown-Waite. Of the percentage of children who are 
sexually abused----
    Mr. Scott. Right.
    Ms. Brown-Waite.--what percentage are violated by somebody 
who previously was convicted of a sex crime?
    Mr. Scott. Right.
    Ms. Brown-Waite. Again, that figure, the recidivism rate 
figure, is 24 percent----
    Mr. Scott. Do you know? It's a very simple question. If a 
million children have been abused, how many of them were abused 
by someone already convicted of a sex crime against children? 
Do you know?
    Ms. Brown-Waite. Mr. Scott, I don't know.
    Mr. Scott. Okay.
    Ms. Brown-Waite. I can only give you the recidivism rate.
    Mr. Scott. Does anybody on the panel know? The Justice 
Department has 3 percent. You've said 20. Does anybody know?
    Mr. Foley. Well, the statistic I have is that a sex 
offender released from custody is four times more likely to be 
arrested for a sex offense crime than any other criminal 
infraction.
    Mr. Scott. Okay. Of the children who are abused in America 
this year, how many of them will be abused by a person 
previously convicted of a child sex crime? Does anybody on the 
panel know?
    Mr. Pomeroy. Mr. Scott, the statistics I have are from an 
article entitled, ``Recidivism of Sex Offenders Released From 
Prison in 1994.'' This is a study of Bureau of Justice 
statistics: 9,691 male sex offenders. And again, it is the 1994 
year. Some of these stats may be helpful to you. Released child 
molesters with more than one prior arrest for child molestation 
were more likely to be rearrested for the same crime----
    Mr. Scott. Wait a minute. Of all of the children who are 
abused in America, what portion of them were abused by someone 
who had previously been convicted?
    Mr. Pomeroy. I do not have that figure.
    Mr. Scott. Okay. If no one has the--if you don't know, I 
mean, you don't know. I mean, we just make up questions. It's a 
simple question. Because if we're trying to reduce child abuse, 
and a very small percentage are being abused by those 
convicted, then we're missing most of the target, if our goal 
is to reduce child abuse. My question was: Of all of those 
abused, how many of them were abused by someone convicted of a 
child sexual offense? And no one appears to know. Okay.
    Now, we know we're going to hear later this afternoon from 
experts who will tell us that rehabilitation programs will 
reduced the problem 50 percent. Any of the bills have any 
rehabilitation in them, since we know that works?
    Mr. Foley. My bill does not. But I welcome that kind of 
insight because I truly believe that this is a serious issue 
that needs to be dealt with, not only with criminal penalties 
and ankle bracelets, but we've got to get to the root cause, 
which is mental illness and other things that cause someone to 
so aggressively go after a child.
    Mr. Scott. Okay. Now, Ms. Brown-Waite has given the cost 
estimates of the cost of her bill. Do others have the cost 
estimates for their bills?
    Mr. Pomeroy. I do not.
    Mr. Scott. Okay. Okay, we do not. And finally, before my 
time expires, we have these reporting requirements in effect 
in, what, all 50 States now? All 50 States? Do we have any 
research showing the result of reducing child sexual abuse as a 
result of those initiatives?
    Mr. Foley. Do we have empirical data, is that what you're 
asking? I think, clearly, when you know where they are and 
you're able to monitor them you have a better handle on their 
whereabouts and their presence. Some of the crimes we've seen 
committed are a result of their either not being on the 
registry, not having properly registered, not complying with 
probation.
    Mr. Pomeroy. Mr. Scott, I would add to that, these accounts 
carry reports of communities that are highly concerned upon 
learning that they have someone with a--has a conviction record 
relative to sex offenses moving into their community, and they 
are moved out of the community. So we don't know whether that 
in the end prevents a crime, but we know they feel safer.
    Mr. Scott. I know it's an unfair question to ask, if 
there's any research to suggest that any of these proposals 
will make a difference. I know that's an unfair question.
    Mr. Foley. Well, I think one of the things we want to do 
is, by having a conversation, a national conversation on the 
consequences of what people are doing, we hope it may stop them 
from acting. The Virginia State Crime Commission today, which 
is just meeting, came up with a lot of problems in the registry 
there. They have 170 registered sex offenders who were 
discovered among the State prison population, even though the 
registry shows them as free and living in Virginia. We have a 
lot of problems, Mr. Scott, in Florida, in Virginia, in North 
Carolina.
    Mr. Scott. Those are problems with the registry. My 
question was, has there been any study to show that the 
registry makes a difference in the number of children sexually 
abused in the State in which the registry is active?
    Mr. Pomeroy. I don't have empirical data. You want 
empirical data----
    Mr. Scott. Because you have, I'm sure, reports of child 
sexual abuse, and then you have the registry coming in, and 
then you have other reports of child sexual abuse. Did the 
registry make a difference?
    Mr. Pomeroy. I see----
    Mr. Scott. And I know it's an unfair question to ask, if 
there's any evidence to show that these make a difference. I 
know it's an unfair question.
    Mr. Pomeroy. Well, look, I think we don't have to have 
empirical data to tell you it absolutely makes a difference to 
people concerned about the safety of their children, to be able 
to have access to information that there might be an elevated 
risk of a sexual offender down the street. They care deeply 
about that. They think that's information they need to have to 
keep their----
    Mr. Coble. The gentleman's time has expired. We could 
revisit this in second round, if we do that. We've got to get 
Mr. Poe out of here.
    We've been joined by the distinguished gentleman from Ohio, 
Mr. Chabot, the distinguished gentleman from Texas, Mr. 
Gohmert. And in order of appearance, the gentleman from 
Wisconsin is going to be recognized, since you were here first. 
Mark?
    Mr. Green. If it's okay, I will yield my place and order to 
Mr. Lungren.
    Mr. Coble. I recognize the distinguished gentleman from 
California, Mr. Lungren, for 5 minutes.
    Mr. Lungren. I thank the gentleman. I would not ask for 
that, except I have to go to the transportation conference. And 
it's been a while since I've been on a conference committee, 
and I don't want to miss that opportunity.
    Mr. Coble. Mr. Lungren, I'm supposed to be there, too, so 
cover me.
    Mr. Lungren. I'll promise not to take your programs. That's 
a nice gesture. [Laughter.]
    This is an important subject for so many of us. We've moved 
so far. When I was in Congress the first time around, 25 years 
ago, we worked with John Walsh to set up the first legislation 
dealing with missing and exploited children. That was 
controversial at the time. The question was, ``Why should there 
be any Federal responsibility?''
    When I was attorney general in California, I noted that at 
that time, while sex offenders were required to register and 
their records were ``public,'' we had created such difficulty 
for any member of the public to find that out that, in essence, 
they were a protected class.
    And, at that point in time, the argument against 
legislation that my office drafted and we carried and 
eventually was passed was that we were invading the privacy 
rights of sexual offenders, and that it would somehow upset 
their rehabilitation.
    We were asked questions such as just asked by the gentleman 
from Virginia, as to whether we would prove absolutely whether 
or not publication of this information would provide a 
difference. And it's the difficulty of proving a negative, 
because it is successful in the area of deterrence.
    The question really is whether or not parents of children 
ought to have information so they can take reasonable 
approaches to protect their children from those who have 
offended previously. That's really the question. If one parent, 
having that information, intervenes such that a child does not 
come in the custody of an individual, that may very well be a 
deterrent effect. Without this information, you couldn't check 
on those who sign up to be volunteer baseball coaches, soccer 
coaches. And we found that on numerous occasions.
    But the question I'd like to ask the four of you is this: I 
see there is support for further publication of this 
information by ease of the Internet. At the time I first dealt 
with the legislation in California, some ``experts'' in the 
field suggested that we not do that because they suggested that 
some confirmed pedophiles, frankly, liked to work with one 
another, given the opportunity, and that Internet access would 
give them the opportunity to find out who else might also be 
involved in this aberrant behavior.
    As a result, when we first set it up, we required that 
people had to access that information at a law enforcement 
department, and at that time had to sign a document saying they 
were not a registered sex offender. Believe it or not, the 
first time we tried it out at the California state fair, we had 
a specific instance in which a woman was checking for sex 
offenders in her neighborhood, and discovered that her 
boyfriend, who was standing next to her, was a registered child 
sex offender. He had neglected to tell her that.
    We had other instances where individuals were preyed upon 
by male adults who apparently were seeking a relationship with 
the mother of a child or children, such that they would have 
the opportunity for sexual exploitation.
    So my question is, with the four of you who support this 
legislation, has that ever entered into it with respect to your 
thinking on these bills? And has anybody ever advised you that 
we ought to be concerned about this information being 
accessible to the pedophile sexual predators themselves? Mr. 
Foley?
    Mr. Foley. I don't know if there's a way to limit those 
types from viewing and joining together, if you will.
    Mr. Lungren. Well, the question is, do we put it on the 
Internet so that it's accessible to anybody who's got Internet 
access? Or do we have it in some other form or fashion?
    Mr. Foley. I think a wide publication, the widest possible 
publication, is the best deterrent.
    Mr. Lungren. Okay.
    Mr. Foley. And the Internet today is the modem of choice 
for people to gather information. And I think, again, if people 
have committed the most senseless of crimes against innocent 
victims, then they should suffer the consequences. And if that 
includes everyone in America seeing their face, then that is 
the sentence for their behavior.
    Mr. Lungren. Judge Poe?
    Mr. Poe. Likewise, I think public notice of conduct is the 
greatest deterrent of conduct. And make it easy access. I think 
it's absurd that many parents now in some of our databases have 
to pay to get into the Internet site. And so I would agree with 
Mr. Foley. Let everybody know who they are.
    Mr. Coble. And the other two witnesses may respond to the 
question, as well.
    Ms. Brown-Waite. I certainly agree with Mr. Foley. And I 
can just tell you that in Florida we have the availability--you 
put in your zip code. And it used to give you just the sexual 
offenders and predators in your zip code. It now does a 5-mile 
radius around your zip code. So that, you know, the whole 
community can know.
    And whether you live in a mobile home community, or whether 
you live in a gated, multi-million-dollar-home community, 
regardless, people are shocked when they put that information 
in and they find out that right down the street is a sexual 
offender or predator; which puts parents and caregivers and 
grandparents on guard. And that's the important thing. That's 
the benefit from having it on the Internet.
    Mr. Pomeroy. I think that the technology now available 
through the Internet, and people's broad acceptance and 
familiarity with that technology, lends itself toward broader 
publication, along with my fellow panelists. And in the course 
of the consideration of the Dru Sjodin law, which included last 
Congress, I've not heard this raised as a serious concern by 
law enforcement. Interesting idea, though.
    Mr. Coble. The gentleman's time has expired.
    The gentleman from Wisconsin, Mr. Green.
    Mr. Green. Thank you, Mr. Chairman. And Mr. Chairman, I 
think one of the frustrations that many of us have when we 
engage in debates on these bills is that we just don't have 
very good numbers, period. There are not very good studies out 
there. There are not good statistics that we can refer to. And 
my friend and colleague, Mr. Scott, as he was cross-examining 
each of the witnesses testifying here----
    Mr. Scott. I wasn't cross-examining them. I was asking them 
questions.
    Mr. Green. Oh, I think ``cross-examination'' is a pretty 
good term for what you were attempting.
    Let me ask a similar question of at least a couple of the 
members of the panel. Now, I'm not going to ask you if you have 
absolute proof that these databases, that these registries 
would make a huge, marked difference in deterring such crime, 
but I'll ask you something else.
    And let me begin with Ms. Brown-Waite, if I can. Instead of 
giving us numbers and statistics on a national scale, perhaps 
you can tell us how your legislation would in fact have made a 
difference in the case of Jessica Lunsford. You can tell us 
with that.
    Ms. Brown-Waite. Thank you. That's an excellent question. 
Let me give you but one portion of the bill that certainly 
would have helped. Mr. Couey, the offender, the kidnapper/
sexual predator, who also killed the young lady, was on 
probation. His probation officer was never told that he had a 
prior sexual offense. And he was working at the same school 
that Jessica went to. Had his probation officer known that, he 
never would have allowed him to work at a school. That's one of 
the provisions that certainly would have been a preventative 
measure that would have kept Jessica, perhaps, alive today.
    Mr. Green. So I guess what you're saying is, while you 
don't have broad studies that you can point to, to show how 
this would make a huge difference nationwide, if this had been 
the law, there is at least a good chance that Jessica Lunsford 
would be alive?
    Ms. Brown-Waite. Absolutely, sir.
    Mr. Green. Well, it seems to me that that's a pretty good 
purpose for legislation.
    I turn now to my good friend, Mr. Pomeroy. I guess I'd ask 
you a similar question. With your legislation--obviously, so 
many of our bills--my own, as well--are driven by stories where 
a human face is put on a problem that all too often is reduced 
to numbers and anecdotes. Perhaps if you can talk a bit about 
your legislation and how that legislation, had it been in 
effect, would have made a difference in this case?
    Mr. Pomeroy. Sure. Three provisions in the law. First, the 
national publication of the registry. It is highly probable 
that there would have been an awareness that a dangerous 
individual, a person, Mr. Rodriguez, was in the vicinity; 
albeit on the Minnesota side.
    Secondly, it's highly possible that there might have been 
civil commitment proceedings brought, had the attorney 
general's office only known that this dangerous sex offender, 
who had refused to participate in the prison programs, had been 
released. And so it's quite possible he never would have been 
on the street. He would have been civilly committed.
    Thirdly, with the extraordinary monitoring required under 
the bill, Mr. Rodriguez, assuming he's convicted, would have 
had the pressure of very frequent, heavy monitoring. And that 
might have influenced his behavior in ways where he was not out 
there perpetrating. Thank you.
    Mr. Green. So again, Congressman Pomeroy, you're not 
telling us that you have studies that can show how this law 
would dramatically change the overall crime rate, recidivism 
rate; but you are saying to us, at least in the case that we 
all know about and followed, quite frankly, from all parts of 
the country, this legislation would almost certainly have made 
a difference, and perhaps have prevented her untimely death?
    Mr. Pomeroy. Yes, I'm convinced it would have prevented her 
death.
    Mr. Green. Thanks. That's all I have.
    Mr. Coble. I thank the gentleman.
    The gentlelady from Texas.
    Ms. Jackson Lee. Thank you, Mr. Chairman. Again, I want to 
applaud the hearing, which I think is long overdue. It seems 
that we can give attention to so many different issues in this 
Congress, and not focus in a pointed way on how do we resolve a 
most gruesome and continuing problem.
    Let me just note for the record--though I wish I had sort 
of the long list--it seems that this has been a bad year. In 
2004 and 2005, we have seen time after time--and it is not 
regionally directed--violence and atrocities that have occurred 
to the most vulnerable, and that is our children.
    Let me ask, I'd appreciate it if I could hear from all of 
my colleagues. And I thank you for indulging--I've reviewed 
your testimony, but was taken away by another meeting. What 
would be the single most important aspect, if we could come 
together and generate the marking up and the moving to the 
floor of the legislative initiatives that are before us, what 
would be the statement that we would be making nationally?
    And I think that's really the key. Because someone reminded 
me that we're talking about Federal law. And Judge Poe, I think 
you're well aware that there's a State jurisdiction, as well, 
that oversees these individuals, many of whom may be tried in 
State courts. And so I think that one of the most important 
things that we can do in the Judiciary Committee is to make the 
national statement of intolerance, that we will no longer 
tolerate this kind of random and reckless and violent attacks 
against the Nation's children.
    So maybe, Congressman Foley, you want to pull out a 
singular entity of your bill, Congressman Poe, Congresswoman 
Brown-Waite, and certainly Congressman Pomeroy. And certainly, 
all of them seem to center around the question of registration.
    You know that I'm going to offer the point that we want to 
make sure that we have the rights of the innocent protected, 
and that means those who may be charged inappropriately. But I 
think that there is always a higher standard when we are 
talking about children, who cannot speak for themselves.
    And many times, unfortunately, the Government has to step 
in where parents and custodial adults fall, if you will, for 
whatever reason, or fail for whatever reason, to protect the 
Nation's children, or their children.
    So I'd appreciate your comment on the importance of a 
national statement, and the importance of seeing these bills 
through the process of hearings and markups and some results 
that would create this national standard that we're so eager to 
have. Congressman Foley?
    Mr. Foley. Well, first, let me suggest, regrettably, that 
in this Nation we track library books better than we do 
pedophiles. Your suggestion on DNA testing and other things is 
so critically important, and I think what you said is 
absolutely accurate: to send a clear message to anyone 
contemplating a crime of this nature, that we will make their 
life a living hell.
    Because part of what we do here in this process is to try 
and set up deterrence; whether it's Sarbanes-Oxley on criminal 
mischief in corporations, or pedophiles and our children. It's 
not always about reconciling statistics. It's about setting the 
bar so they realize that if they offend, that their life as 
they knew it will be terminated.
    No longer will they have freedoms. Ankle bracelets, some 
people reject. I'm sorry. We put one on Martha Stewart. She 
wasn't going to hurt anyone. And we're worried about a sexual 
predator being monitored during their probation--and required 
to wear it for life, as our bill does, if they re-offend?
    So I think you're right on point, Ms. Jackson Lee. It's 
high time we elevate this debate to a national voice--a yelling 
match, if we have to. Thank you.
    Ms. Jackson Lee. Congressman Poe? I'm going down the line.
    Mr. Poe. Thank you, Jackson Lee. I appreciate your concern 
about this epidemic. It's not only a crime issue. I think we 
should make a statement that it is a public health issue, when 
you're dealing with the health and wellbeing, physical and 
mental health, of children. That would be the first place that 
I would move on a national basis.
    And second, based on the over 20,000 criminal cases I 
heard--and a good many of them are these type of cases--the one 
thing that these individuals want is to remain anonymous. Those 
days need to be over. Therefore, community notification in my 
bill I think is vital; that they notify the communities which 
they move into.
    And the second thing we know is that they repeat again. The 
people I've tried, we know that most of them had multiple 
crimes against the one victim, and there were other victims as 
well that were never in the courtroom that were also prey to 
these individuals. So community notification and a public 
health issue.
    Ms. Jackson Lee. Thank you. Congresswoman?
    Ms. Brown-Waite. Thank you very much. I know of your 
sensitivity to this issue. I think whether we are from Texas or 
whether we're from Florida, whether we are from North Dakota, 
we want to make sure that children nationwide have, and 
families have, a sense of security.
    Unfortunately, predators and offenders don't stay in one 
State. They go across State lines. And we need to make sure 
that there is a time frame and a punishment for not registering 
when you do move, when you change your address. Because if I 
pull up on the Internet my zip code, and I know who's around 
there, but three of the people have left and they've moved to 
your State, I think you need to know that right away, and your 
State officials need to know that right away. Absent a severe 
penalty for not informing officials that they move, then our 
children are clearly at risk. That, to me, we can't tolerate.
    We, as Federal elected officials, have to make the Jacob 
Wetterling Act and Megan's Law, all of those laws that protect 
children, we need to make them tougher.
    Mr. Coble. The gentlelady's time has expired.
    Mr. Pomeroy, you may respond.
    Mr. Pomeroy. While I've been serving in Congress, I've been 
privileged to become the father to two children that I've 
adopted, and I feel this legislation so deeply and so 
personally. The parents of the victims that we've discussed in 
the course of this hearing have had to live the worst fears of 
any parents.
    There's an awful lot of parents out there worrying about 
the safety of their children. And moving this legislation 
forward, I'm absolutely convinced, can do some good in terms of 
keeping those children safe. Certainly, it's not the end of the 
day, it's not the guarantee; it's still a dangerous world out 
there. But this helps. And these families deserve our response.
    Ms. Jackson Lee. I thank the Chairman. Some of the things, 
Mr. Chairman, that we are speaking of I believe only the 
Federal legal system can handle, and that's why I think it's so 
very important.
    Mr. Coble. The gentlelady's time has expired.
    The gentleman from Ohio, Mr. Chabot. Mr. Poe, what do you 
have, Mr. Poe, four or 5 minutes left?
    Mr. Poe. I need to leave now, Mr. Chairman, if I could be 
excused.
    Mr. Coble. If you have a question, put it to Mr. Poe first, 
if you will, Mr. Chabot.
    Mr. Chabot. Okay. I don't have one specifically, but I 
appreciate your testimony here this morning. And I want to 
thank you for holding this hearing.
    Mr. Coble. You are recognized, Mr. Chabot. And Mr. Poe, if 
you have to leave, you may be excused.
    Mr. Poe. Thank you, Mr. Chairman.
    Mr. Gohmert. Could I ask the gentleman to yield, so I could 
ask Mr. Poe?
    Mr. Chabot. I'd be happy to yield.
    Mr. Coble. That will be fine.
    Mr. Gohmert. Thank you, and I can yield back. But to my 
former fellow district judge from Texas, I know you have 
sensitivities about States' rights, too. I know we both feel 
very passionately about this issue, and the recurrence of these 
types of offenses. So I'm sure you in your own mind dealt with 
the States' rights issues here. And is the Federal Government 
usurping Federal--I mean States' rights? And I'd just ask for 
you to comment on that, please.
    Mr. Poe. Mr. Gohmert, the problem is, they cross State 
lines. And because they cross State lines, they re-offend, and 
the Federal Government has to do something about that. But I'm 
sensitive to State's rights, but this is a problem that has 
occurred with the numerous cases this year. All of these 
individuals moved about from State to State, because of the 
lack of a national registration requirement.
    Mr. Chabot. Okay. Reclaiming my time, we've got a very 
distinguished panel. We appreciate their time being here today. 
And the statistics that our colleague, Mr. Foley, had included 
in his testimony are really shocking, and they demonstrate what 
our children are up against, and the fact that we need to 
mobilize all the resources available to us to stop really this 
horrible trend that we've seen in our country.
    And it includes using DNA technology. And we know the 
effectiveness of DNA testing to help crack down on sex 
offenders and child predators. But I'd like to focus my 
question on the effectiveness of DNA testing to help families 
find their children who may be missing because they've been 
abducted by a predator; or in the most unfortunate situation, 
to identify the remains of those that have been violently 
murdered.
    We had a particularly horrific incident in our area in 
Cincinnati, and we've been working with the mother of a 
daughter who was abducted and ultimately discovered to have 
been murdered. Her remains, however, have--they've not 
discovered the location of the remains; although the 
perpetrator has been convicted.
    And we have discovered that there are literally thousands 
of remains at coroners' offices around the country, in police 
departments. And, unfortunately, we haven't done the DNA 
testing that's really necessary to locate a number of these 
people and give some closure to some of these families.
    So Mr. Foley, in Florida you have a very comprehensive 
missing person program, including receiving grants to increase 
the use of DNA testing to locate missing children and adults 
and identify human remains.
    Do you believe that encouraging law enforcement to take DNA 
from family members is part of a missing person investigation? 
Would it enhance our efforts to help families who may have had 
to go through these ordeals? And do you think that encouraging 
law enforcement to take DNA samples from remains would help to 
locate and to bring the families more--let them know that 
actually something's being done and that they're positively 
contributing by cooperating in that manner?
    Mr. Foley. It serves a multitude of opportunities. As Ms. 
Jackson Lee knows in her bill, what you try to do both is use 
it as a way to go back after prior crimes and find out if the 
person accused in this crime committed the crime against that 
child, using DNA collections.
    You also, most recently, had a case where a mother was told 
there was a fire in a building; her child they thought had died 
in the fire. They found this child who looked very similar to 
hers several years later. They did a DNA test, identified it as 
the child of this woman who thought her own child had perished. 
So DNA testing can be a valuable tool to help families come to 
grips on whether the missing person is in fact theirs.
    Once in a while, we're never able to solve the crime, but 
closure for them is as important, knowing if that is their 
loved one, that at least they can bring closure and finality to 
their search.
    I've got to imagine the pain of a family wondering where 
their child is. And I just believe that that gives us a tool 
both for the protection and, as Ms. Jackson Lee mentioned, the 
exoneration of people that are not complicit to the crime.
    Mr. Chabot. Thank you. I know Mr. Green has a bill that 
deals a little more specifically with DNA. And we've talked 
with them, and are willing and would like to work with them.
    With the additional remaining time that I have here, I'd be 
happy to allow the other two panel members to comment either on 
what we talked about just now or anything else that you perhaps 
thought that we needed to go into a little bit more and didn't 
have sufficient time. Ms. Brown-Waite?
    Ms. Brown-Waite. Let me just briefly touch on the DNA 
testing. It certainly is one tool that law enforcement can use. 
And I was delighted, about a month and a half ago, 2 months 
ago, they were telling on the news that there is a kit that's 
out now that parents can actually take a swab from the inside 
of the child's mouth, put it in a preservative, and keep it in 
the refrigerator indefinitely. Certainly, medical and 
scientific technology like this, as it advances, will go a 
long, long way to help to solve some of the issues involving 
missing family members.
    Mr. Chabot. Thank you.
    Mr. Pomeroy. Well, thank you very much for the opportunity. 
I very much want to call your attention to this provision in 
the bill that I've introduced relative to making sure civil 
commitment authorities are notified when there is a release 
from prison.
    A number of States--I think it's a trend--are bringing on-
line civil commitment. And it's the traditional civil 
commitment jurisdiction where, if you're a danger to yourself 
or others, you can be--it's not criminal, but you can be 
civilly committed.
    And so if you have a dangerous offender, highly likely to 
commit a crime again, and they can prove that up in a civil 
commitment hearing, that individual is not in society. That 
individual is civilly committed.
    And there has to be agencies talking to one another. There 
has to be notification when these people are coming out of 
prison. This seems to me to be a very simple thing. But I think 
the Federal Government can help address some dysfunction at the 
State level, with this provision. Thank you.
    Mr. Chabot. Thank you. Yield back, Mr. Chairman.
    Mr. Coble. The gentleman's time has expired.
    The gentleman from Texas, Mr. Gohmert.
    Mr. Gohmert. And I would be glad to yield, Mr. Chabot, if 
you'd like more time. All right, thank you.
    I had a question actually for each of you, just to see your 
impression and get your comments. And before I ask, I would 
like to just commend all of you for the work you've done, and 
Ms. Jackson Lee. There are so many of us that, as I mentioned, 
my former judge friend, are very passionate about this issue. 
We've seen so much injustice, so much that could have been 
avoided if the proper steps had been taken.
    My question has to do with the type of registration. Texas 
requires registration. I've seen situations where people were 
paroled far sooner than they should have been, and adequate 
registration didn't occur and other things happened.
    I'm wondering if we should require perhaps even the charge 
itself to be accessible in the registration. Because I've known 
of situations where some young kid ``moons'' somebody, and his 
lawyer said, ``Just plead `No Contest'. You get probation.'' 
And the next thing you know, he's got to register as a sex 
offender. And then it scares everybody in the neighborhood that 
this nice young man is a sex offender.
    On the other hand, one of the things that makes sex 
offenders often so dangerous is they are so persuasive. They 
are incredibly persuasive. So they can convince young people, 
they can convince girlfriends, they can convince people that 
they are not this horrible person, and convince them that the 
charge wasn't nearly what somebody might have thought it was.
    I'm wondering if it might not be a good idea to have the 
actual charge set out, that they on such-and-such day of such-
and-such, they did then and there do such-and-such act to such-
and-such person, something along that--I'd just like you all's 
comments.
    Mr. Foley. No question. I think we have to be very, very 
cautious, because there are differences between aggravated 
sexual offenses and things like you described. A recent case, 
where neighbors chose to create posters of a young man in the 
community; he happened to be suffering a mental illness, and he 
probably exposed himself and was listed as a sex offender. He 
was so mortified, he committed suicide.
    We've got to be careful that we delineate what a sex 
offender is, and maybe some unusual behavior. We have to rely 
on the courts to discern. We could get into familia situations, 
where a 19-year-old boy takes off with a 17-year-old girl; the 
father has a problem with it, despite the fact they're 
consenting; charges him with a crime. His life could be ruined. 
And facts should prevail in that case to exonerate him from a 
sexually deviant behavior.
    And so I think your question is why we're before the 
Judiciary Committee; to sort out and provide some guidelines 
and some safety valves from, you know, going too far, as well.
    Ms. Brown-Waite. Actually, I think that's an excellent 
idea, and I'll tell you why. Because it also could go the other 
way. I know of a case where a middle-aged man truly was a 
sexual offender. He told people it was a lot less serious than 
what it was. He said, you know, someone walked in the men's 
room. And to make matters even worse, this particular person's 
wife had an adult home, where she took elderly people into her 
home.
    And the State of Florida, until I made a ruckus over it, 
did absolutely nothing about it. But he was able to talk it 
down and say exactly that. So I think having the offense 
specifically be spelled out will help on both ends of the 
spectrum.
    Mr. Pomeroy. I agree. I've nothing to add in terms of well-
spoken words of my panelists here, but I agree.
    Mr. Gohmert. Well, I appreciate you all's comments. That 
was my question. I applaud you all's efforts. And having 
handled thousands of criminal cases and having testified in 
different types of cases myself, I know it's never comfortable 
to be in the hot seat, but I applaud your efforts in doing so. 
This is a good cause you're here for.
    Thank you, Mr. Chairman, I yield back.
    Mr. Coble. I say to the gentleman from Texas, I commend you 
for that line of questioning. And Mr. Foley pointed out the 
tragic situation where the guy died by his own hand. We do have 
to be extremely cautious. And I don't want to nail anybody 
unjustly. And I'm glad you opened that door, Mr. Gohmert.
    Now, folks, keep in mind, we've got to be out of here 
imminently, but I do think we have time for another round. And 
I'll start mine off very quickly, and then I'll recognize Mr. 
Scott.
    Much has been said, folks, about the State compliance on 
registry requirements, or the non-compliance. Let me ask each 
of you this question. What is your belief regarding the role of 
the Federal Government in ensuring that States comply with the 
registry requirements? Mr. Foley, I'll start with you.
    Mr. Foley. Well, the first thing we want is the U.S. 
Attorney General, in consultation with the States, to develop a 
seamless statewide-national database. We also provide some 
funding for their--if you will, a ``carrot'' approach, to get 
them into compliance. It doesn't do any good to have 50 
different States working on 50 different systems. So in this 
bill we set up a national, with consultation with States, and 
try to encourage their compliance and participation.
    Mr. Coble. Ms. Brown-Waite?
    Ms. Brown-Waite. I think the role of the Federal Government 
is to set stricter minimum standards than currently exist in 
the law now. States, of course, because of States' rights, have 
the ability to have more stringent regulations in place. But I 
think it's incumbent on us to set stricter Federal regulations.
    Mr. Coble. Mr. Pomeroy?
    Mr. Pomeroy. I think that Federal action would make it 
comprehensive, could make it uniform, and could establish a 
floor of protection. Because clearly, the danger to our little 
ones shouldn't vary by geography. I want a floor of protection.
    Mr. Coble. The gentleman from Virginia.
    Mr. Scott. Thank you, Mr. Chairman. Mr. Chairman, I think 
there's some confusion between notifying law enforcement and 
monitoring and those who may need to know, like a day care 
center or something like that getting access, and public 
release on the Internet where anybody out of curiosity can just 
look. They're two different things.
    In the cases that were cited, I think the suggestion was, 
had the person been monitored by law enforcement, things 
wouldn't have happened. I don't think there's any debate over 
the law enforcement's need to know and monitor and all this 
information available to law enforcement. The question is 
whether it is productive or counterproductive to have it, or 
the expense of having the public display.
    One of the--I think it's well known, and we're going to 
hear later this afternoon, that 90 to 95 percent of child 
sexual abuse is friends and family. And so if we're talking 
about stranger convicts, you're talking about a small, 
minuscule number of the cases of child sexual abuse.
    Ms. Brown-Waite, I think you cited a study from 1994. And I 
assume it's the ``Recidivism of Sex Offenders Released From 
Prison in 1994,'' that's presently available on the Bureau of 
Justice Statistics' website, Department of Justice. And you 
cited that of the released sex offenders, 24 percent were re-
convicted of a new offense.
    You didn't read the part that said compared to non-sex 
offenders released from State prison, sex offenders have a 
lower overall re-arrest rate. When re-arrests of any type of 
crime, not just sex crimes, were counted, the study found that 
43 percent of released sex offenders were re-arrested. The 
overall re-arrest rate of those released for non-sex offenders 
was higher, 68 percent. It goes on to say that of those 
released sex offenders, 3.5 percent were re-convicted of a sex 
crime within the 3-year follow-up, 3.5 percent.
    Let me ask a couple of questions. Is there anything in any 
of the bills that deals with the liability questions if someone 
is wrongfully listed, or someone wrongfully not listed, or not 
sanctioned if they haven't reported, or they haven't been 
followed up on?
    Mr. Foley. Are there any penalties if they do not?
    Mr. Scott. Is there any consideration of liability one way 
or the other?
    Mr. Foley. No. I have not created liability for----
    Mr. Scott. So if someone is wrongfully listed, what 
happens? Anything?
    Mr. Foley. Well, hopefully, they can declare their 
innocence and be immediately removed from the list.
    Mr. Scott. Is there any process for that?
    Mr. Foley. [No response.]
    Mr. Scott. Okay.
    Mr. Pomeroy. Mr. Scott, I think they'd also have their full 
array of civil justice remedies.
    Mr. Scott. Well, that's civil liability. You can sue 
somebody for wrongfully--for damages.
    Mr. Pomeroy. Right.
    Mr. Foley. Current law has a way in which to be removed 
from a website. And this would continue in our bill, as well.
    Mr. Scott. There would just be removal? No civil liability?
    Mr. Foley. No, sir.
    Mr. Scott. You suggested that the crime reporting is not 
uniform; different States describe different crimes using 
different descriptions. With that being the case, how do you 
have a uniform reporting so that everybody is reporting similar 
crimes? What kind of database would we be talking about?
    Mr. Foley. Again, working with the U.S. Department of 
Justice and the Attorney General, trying to create similar 
fields, so you have data entry points much like we have a 1040 
form, a standardized form, for our taxes; try to create a 
uniform form for all States to input the same data and then 
share the data.
    Mr. Scott. I can assure you, that's going to be difficult, 
because people describe--I mean, just assaults, there are 
various gradations, from a little fistfight to attempted 
murder. Different States describe those crimes using different 
terms, and where you draw the line is going to be extremely 
difficult. Thank you, Mr. Chairman.
    Mr. Coble. I thank the gentleman.
    The gentleman from Wisconsin, Mr. Green.
    Mr. Green. Thank you, Mr. Chairman. No more questions.
    Mr. Coble. I thank the gentleman.
    The gentlelady from Texas, Ms. Sheila Jackson Lee.
    Ms. Jackson Lee. Thank you, Mr. Chairman. Again, I want to 
offer my appreciation for the Ranking Member and the Chairman 
of this Committee, to finally gather all of these legislative 
initiatives for it to be heard that Congress is concerned.
    And I just want to offer these two points into the record. 
Some of these statistics, obviously, are always changing. 
Murder is the only major cause of childhood death that has 
increased over the past three decades. Between 300,000 and 
400,000 children are victims of some type of sexual abuse, 
exploitation, every year.
    And certainly, Mr. Pomeroy, as you've noted, becoming a 
father during your tenure in Congress, your interest and 
concern is raised; but I would simply say that we owe an 
obligation, regardless of our status. We're grateful, those of 
us who are parents. We do have this great interest. But we know 
all of our colleagues realize that we must make a national 
statement on behalf of our children.
    I would say to you this question in closing, as well. One 
of the aspects of the legislation that I have offered that I'm 
glad that Mr. Foley and I are on the same page is that we 
provide a single database for convicted sexual predators, so 
that there is the opportunity for law enforcement to have a 
quick check, if you will, when they begin to do their 
investigation.
    I want to acknowledge that we have been really moved on 
this issue by Missing and Exploited Children's organization, 
that has been a great leader for years.
    And then I want to share two stories. In my community, a 
series of sexual acts against little boys--and that's another 
thing that we need to realize. This is an equal-opportunity 
offender, a sexual predator. No parent who has a son should be 
comforted, or has a daughter should be comforted, of any age.
    And this individual was preying upon a region or an area in 
my congressional district for a 2-year period. And certainly, 
our local law enforcement were doing a fine job. But I came in 
all of a sudden and met with community leaders, and I said, 
``Has anybody called the FBI?'' No one had called the FBI to 
engage on a number of grounds that they could have been called.
    Once they got called in, you would not have imagined. In 24 
hours, this individual, who lived in the neighborhood--I can't 
say that he was a friend of these children; he just happened to 
live in the neighborhood; a grown, grown man, living with his 
mother--was found immediately. That's one incident where we can 
do better at cooperation.
    The second one is this whole idea of stranger, friend, or 
not. What about a little boy who's in a shopping area with his 
family. Someone comes up to him and says, ``I don't speak 
English well--'' he happens to be of the same ethic background 
``--help me go and talk to the McDonald's man about getting 
some food.'' In a matter of seconds, this little boy is taken 
away, 12 years old, and sexually assaulted.
    So I think that the point again about the national standard 
is key. And one of the things I'd appreciate if you'd answer so 
that--this whole question of cooperation between Federal and 
State, if I allow each of you to answer it.
    But this other point in the legislation that I have is the 
whole question of recidivism. Giving States incentives that can 
prove that they are working with some sort of strategy to 
eliminate the recidivist inclination of a sexual predator or 
someone who violently acts against a child. I'd appreciate if 
you all would answer those questions.
    Ms. Brown-Waite. I'll be happy to go first. I had a problem 
with the Jessica Lunsford case, where the State's attorney did 
not proceed--actually, dropped charges against three people who 
had information about what was going on in the trailer. 
Thankfully, the United States Attorney's Office--I'd been 
working with them--they have assured me that they have an 
ongoing case.
    But very often, what you have is a turf battle, where the 
local law enforcement doesn't want the big brother to come in 
from outside. And so that, unfortunately, is a problem.
    Ms. Jackson Lee. We need more cooperation.
    Ms. Brown-Waite. Absolutely. And, you know, I don't know if 
you mandate that. I guess that would be like, you know, 
mandating goodness. Like one child asked me to draft a bill 
that everybody be kind to each other. But getting law 
enforcement to cooperate. And you know, certainly the FBI has a 
lot more technology available to them than what very often 
local law enforcement has.
    Ms. Jackson Lee. Mr. Pomeroy?
    Mr. Pomeroy. I think legislation, Ms. Jackson Lee, could 
help encourage the kind of cooperation that we need. Federal, 
State, local--parent's don't care; they want their kids safe. 
And we've got to cut across jurisdictional lines to do it. I 
think maybe some encouraging direction in the language of the 
legislation itself could be helpful.
    And I like what you said about a special sentence to really 
work on this recidivist question. Because the statistics in the 
article I earlier quoted show that convicted sex offenders are 
significantly more likely than a non-convicted sex offender to 
re-perpetrate. And so let's get after this with more of a 
focused effort. And I think some incentives would be a great 
idea.
    Ms. Jackson Lee. Mr. Foley.
    Mr. Foley. Let me just say that, in all my 11 years serving 
in this Congress, this has probably been the most productive on 
issues like this, where Democrats and Republicans are blurred 
by partisan distinction.
    And I think the same goes for our law enforcement 
communities. They want to do a good job protecting kids. We 
haven't given them comprehensive tools. We haven't provided the 
funding that we promised in these bills. We mandate things, and 
then we say, ``Go it alone, and good luck.''
    And the technology is so out of date, no one can even 
access the data. They don't even report missing persons to a 
national registry. So we've got to start, I think, with a clean 
page; start with a proper approach; provide uniformity and 
continuity; and then give them the efforts, or at least the 
resources that they need to fulfill the mission.
    When we find these cases, these horrific cases, I can tell 
you, those State attorneys and those sheriffs and those police 
chiefs who have been in the glare of the media spotlight think, 
``What could we have done to prevent this?'' Well, it's a 
little late at that point.
    So what we are doing here in these bills--and, thankfully, 
we're all on the same page with different provisions--but at 
the end of the day, as these bills merge together, we're going 
to have a product that works and that has been thought through 
and contemplates all of the pitfalls. And that's why I'm very 
proud of the kind of tone we're setting here today.
    Ms. Jackson Lee. Thank you. Thank you, Mr. Chairman.
    Mr. Coble. You're indeed welcome.
    Ms. Jackson Lee. And if you would indulge me just a minute 
to thank these witnesses, and to make mention of the fact that, 
as you were speaking, the CEO and President of Missing and 
Exploited Children walked into the room. And I hope he sensed 
the harmony and the spirit of cooperation that the Chairman and 
the Ranking Member are exhibiting, and, of course, Members of 
this body are exhibiting.
    And hopefully, this will work all the way through passage 
of these legislative initiatives, with a sense of fairness to 
individuals who would be prosecuted wrongly; but to make sure 
we make a national statement on behalf of our children.
    Mr. Foley. If the gentlelady will yield, Mr. Allen was, in 
fact, on the NBC ``Today Show'' this morning, doing the great 
work of the National Center, as well. And I thank you.
    Mr. Coble. I thank the gentlelady.
    Ms. Jackson Lee. And I thank the Chairman.
    Mr. Coble. And I want to reiterate what the lady from Texas 
said. I commend you all for your passion. Obviously, you feel 
very passionately about this. And we thank you all for your 
testimony.
    In order to ensure a full record and adequate consideration 
of this important issue, the record will be left open for 
additional submissions for 7 days. Also, any written questions 
that a Member wants to submit to the witnesses should be 
submitted within the same 7-day period.
    This concludes the legislative hearing on ``House Sexual 
Crimes Against Children Bills.'' Thank you for your 
cooperation, and for those in the audience, as well. The 
Subcommittee stands adjourned.
    [Whereupon, at 3:40 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

 Prepared Statement of the Honorable Robert C. Scott, a Representative 
      in Congress from the State of Virginia, and Ranking Member, 
        Subcommittee on Crime, Terrorism, and Homeland Security

    Thank you, Mr. Chairman, for holding ths hearing on bills regarding 
sex and other violent crimes against children. A host of bills have 
been filed by members on both sides of the aisle in the wake of several 
horrific sex crimes and murders against children in recent years. These 
types crimes are especially abhorrent and the public demands actions to 
address them and to prevent similar crimes to the extent possible.
    I know that all of the bills before us are developed with these 
objectives in mind. However, as policy makers, we know that these type 
tragedies will occur from time to time, so it is incumbent upon us to 
not simply do something, but to do something that will actually reduce 
the incidences of these crimes. We know that many more children die as 
a result of child abuse than is reflected by the tragic cases of child 
sexual abuse and murder that have been in the news, and we know that 
the vast majority of child abusers, including child sex offenders, were 
abused themselves as children. We also know that the vast majority of 
abusers are relatives and other individuals well known to the child and 
family, 90-95% according to BACHNET (Be a Child's Hero Network), and 
that most cases of abuse are never reported to authorities or ever 
dealt with in an official manner.
    It would be nice to think that we can legislate away the 
possibility of such horrific crimes, but it is not realistic to believe 
we can and we should certainly seek to avoid enacting legislation that 
expends scarce resources in a manner that is not cost effective or that 
exacerbates the problem. While it is clear that having police and 
supervision authorities aware of all location and identification 
information about child sex offenders, it is not clear that making that 
information indiscriminately available to the public, with no guidance 
or restriction on what they can do with, or in response to, such 
information, is helpful or harmful to children. There have been 
incidences of vigilante and other activities which have driven 
offenders underground. And, again, the vast majority of offenders are 
family members or associates known to the victim. In one case, a 
teacher was reading the names of offenders to a grade school class on 
which there was the name of the father of one of the students, the 
victim, in the class.
    Moreover, some of the elaborate procedures and requirements of the 
bills before us will cost a lot of money, and we should assure there is 
a cost benefit analysis of what would be the most productive use of 
such money rather than simply impose the requirements without 
references to effectiveness or cost/benefit.
    So, Mr. Chairman in hearing the testimony today, I will be 
listening for anything that reflects research and reliable evidence 
regarding what might actually protect children and reduce incidences of 
child sexual and other abuse. I know we all mean well, but we must also 
assure that what we do is actually productive rather simply something 
that sounds good, but is counterproductive. Thank you.

                               __________
       Prepared Statement of the Honorable Sheila Jackson Lee, a 
    Representative in Congress from the State of Texas, and Member, 
        Subcommittee on Crime, Terrorism, and Homeland Security

    The problem of violence against children and sexual exploitation of 
children has been highlighted by recent events involving brutal acts of 
violence against children. Recent examples include: (1) the abduction, 
rape and killing of 9 year old Jessica Lunford (who was buried alive); 
(2) the slaying of 13 year old Sarah Lunde, both of whom were killed in 
Florida by career criminals and sex offenders. In Philadelphia, four 
defendants were charged with the stabbing and killing of a 15 year old 
girl, who they then threw into the Schuykill River. All of these tragic 
events have underscored the continuing epidemic of violence against 
children.
    These tragic events have underscored the continuing epidemic of 
violence against children, and the need to reexamine the Jacob 
Wetterling Crimes Against Children and Sexually Violent Offender 
Registration Act, Megan's Law and the Pam Lyncher Sex Offender 
Trafficking and Identification Act. Specifically, recent proposals have 
been made to fill in gaps in existing law in order to protect children 
from sexual predators.
    Furthermore, there is a wide disparity among the state programs in 
the registration requirements and notification obligations for sex 
offenders. Given the transient nature of sex offenders and the 
inability of the states to track these offenders, it is conservatively 
estimated that approximately 20 percent of 400,000 sex offenders are 
``lost'' under state sex offender registry programs. In addition, there 
is a disparity among state programs as to the existence of Internet 
availability of relevant sex offender information, and the specific 
types of information included in such websites. Moreover, the States 
tend to take a more passive role in disseminating sex offender 
information, relying instead on law enforcement to disseminate such 
information to interested entities such as schools and community 
groups. Recently, the Justice Department announced that its plan to 
implement a public, national sex offender registry, linking together 
the State registries into one national website.
    In addition, the sexual victimization of children is overwhelming 
in magnitude and largely unrecognized and underreported. Statistics 
show that 1 in 5 girls and 1 in 10 boys are sexually exploited before 
they reach adulthood, yet less than 35 percent of the incidents are 
reported to authorities. This problem is exacerbated by the number of 
children who are solicited online--according to the Department of 
Justice 1 in 5 children (10 to 17 years old) receive unwanted sexual 
solicitations online.
    Department of Justice statistics underscore the staggering toll 
that violence takes on our youth (DOJ national crime surveys do not 
account for victims under the age of 12, but even for 12 to 18 year 
olds, the figures are alarming). Data from 12 States during the period 
of 1991 to 1996 show that 67 percent of the all victims of sexual 
assaults were juveniles (under the age of 18), and 34 percent were 
under the age of 12. One of every seven victims of sexual assault was 
under the age of 6.
    In closing, I look forward to hearing the testimony of our 
distinguished panelist.
   Document entitled ``Case Study of Serial Killers and Rapists: 60 
   Violent Crimes Could Have Been Prevented Including 53 Murders and 
                                Rapes''

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 Document entitled ``Highlights of the Foley Sex Offender Registration 
                         and Notification Act''

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      List of Individuals and Organizations Supporting H.R. 2423,
         the ``Sex Offender Registration and Notification Act''

Individuals and Victim's Parents

Maureen Kanka, Megan Kanka's mother

Ed Smart, Elizabeth Smart's father

Linda Walker, Dru Sjodin's mother

John Walsh, America's Most Wanted

Patty Wetterling, Jacob Wetterling's mother

Organizations

Boys and Girls Clubs of America

Federal Law Enforcement Officers Association

Fraternal Order of Police

National Center for Missing and Exploited Children

National Children's Alliance

National District Attorneys Association
    Letter from the Honorable William Moschella, Assistant Attorney 
General, Office of Legislative Affairs, U.S. Department of Justice, to 
                      the Honorable Orrin G. Hatch

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Map of Registered Sex Offenders in the United States

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Document entitled ``Preventable Crimes In Chicago''

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

        Document entitled ``The DNA Fingerprint Act of 2005,'' 
                     Introduced by Senator Jon Kyl

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
